<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012 

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Lautenberg, Pryor, Hutchison, 
Johnson, and Collins.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. The Subcommittee on 
Commerce, Justice, Science, and Related Agencies will come to 
order.
    Today, we are taking the testimony of Director Robert S. 
Mueller, III on the Federal Bureau of Investigation's (FBI) 
budget and priorities for fiscal year 2012.
    I know Senator Hutchison is on her way, but I'm going to 
open with my remarks while she's on her way, because we're 
going to do what we have been doing the last 3 years, which is 
to have an open hearing on the FBI's--here she is--the FBI's 
budget and their priorities for funding. And then we will take, 
around 11 o'clock, a 15-minute recess, until we go to the 
Intelligence Committee's room. Senator Feinstein has graciously 
made available that hearing room for us, where we will meet in 
a classified briefing on the request.
    Sixty percent of the FBI's appropriated requests now are in 
the area of national service--excuse me--national security. 
After 9/11, shortly after Director Mueller was appointed, the 
United States of America, faced with one of its greatest 
attacks since Pearl Harbor, had the decision on how it would 
deal with domestic threats; responding to international 
terrorism; ``Should we set up our own MI5?'' But, we chose not 
a new agency, not a new bureaucracy, but to turn to one of the 
most trusted agencies in the United States Government, our FBI. 
And we stood up an agency within an agency, but we wanted them 
to act as one agency. And Director Mueller has just done that.
    This hearing has some poignancy to it, because it will be 
Director Mueller's last. I'm kind of misty here. Director 
Mueller and I have been through so much together--not with each 
other. But, I went on the Intelligence Committee just weeks 
before the attack on the United States, and the Director was 
appointed. And we went through so much in establishing this 
agency: the 9/11 commissions; how do we respond to the great 
threats facing the United States; and with the FBI not 
neglecting the criminal enterprises, even though, with the 
terrorists, it was the criminal enterprises against us. So, I 
think he's been a fantastic FBI Director.
    We know that, today, it's his last appearance before the 
subcommittee. I know the subcommittee just has considerable 
respect for him and his excellent executive ability, his 
patriotic dedication. And, as the Washington Post referred to 
him, he's one of the nighthawks that stay up with these late 
briefings and threats around the world.
    So, we want to hear from you, Director Mueller, because, I 
know you want this hearing not to be about you, but about the 
FBI and what we need to do to make sure the FBI has the right 
resources to do the job that we ask them to do.
    We acknowledge that we're in uncertain times. The FBI is 
operating at $500 million below the President's 2011 request. 
We want to know, how is the FBI addressing this cut? We need to 
know how it's affecting staff and morale.
    As I said, we'll begin with unclassified, and then we'll go 
to the closed hearing.
    As head of this subcommittee, I have three priorities when 
examining the FBI's budget: one, its national security, its 
security related to our communities. How is it our keeping 
our--working with local law enforcement--streets and 
neighborhoods safe? And how are we dealing with the new 
challenges, particularly in financial services: mortgage fraud, 
and Medicare fraud. The Congress makes a big show sometimes of 
saying, ``We're going to go after fraud and abuse.'' Well, you 
know what? The FBI actually does it. They actually go after 
crooks that are scheming and scamming people through their 
mortgages and also through our Medicare fund. So, we're going 
to learn more about its 2012 budget request, exactly on 
accomplishing those objectives.
    The five highlights of the new budget include gathering 
intelligence on cyberthreats, $120 million; fighting mortgage 
fraud and white-collar crime, $245 million; going after those 
despicable sexual predators, $90 million; tracking weapons of 
mass destruction, at $89 million; and tracking international 
terrorist networks, at $316 million.
    Our Nation faces these growing threats, and they're 
absolutely crucial that we stay online. The growing threat of 
cybersecurity, which we also work very closely with, with the 
Intelligence Committee, is a critical component for our 
Nation's infrastructure. We worry about online banking and 
commerce, the electrical power grids, air traffic control 
systems, and we need to make sure that we are able to respond 
to a whole other war, called ``the cyberwar''. This year, the 
request is $129 million, and we want to hear more about those 
details, but we'll reserve that for the classified time.
    The FBI is requesting $3.3 billion for counterterrorism 
activities. It's a 4 percent increase, and a $128 million 
increase over the current level. The FBI is using these funds--
and this is really important--to disrupt terrorist plots, 
investigate terrorist crimes, and identify, track, and defeat 
terrorist sleeper cells operating in the United States. I want 
to know more about this.
    I know my colleague from Texas will also be asking 
questions about another war front that we're on, which is the 
Southwest Border, and the role of the FBI in working to defeat 
the drug cartels that want to--that are engaged in such 
horrendous and horrific activity.
    When we look at violent crime--and part of this is going on 
right at our Southwest Borders--we know that there is a $2.6 
billion request for fighting what is the traditional role of 
the FBI. And again, this is a 5.4 percent increase.
    But, you know, the criminal organizers and enterprisers 
are--again, these are very sophisticated criminal 
organizations: trafficking in children, schemers of middle-
class homes, trying to bilk Medicare. It seems that wherever--
there's no end to the ingenuity of crooks and thugs in our 
country. But the FBI is on it.
    We want to congratulate the FBI on what it is doing in 
mortgage fraud. They have an incredible success rate in going 
after those who have bilked our constituents. And right now, 
the subcommittee will find--and the Director will speak to it--
they have a 3,000 case backload in mortgage fraud. This is why 
we're troubled by the FBI freeze that they're mandated to 
follow.
    There will be issues related to accountability, 
particularly in technology. We know that the Sentinel program 
has had speed bumps, potholes, and a variety of other metaphors 
that we could use. But, I understand that working--that the FBI 
now has that on track, and we'll look forward to it.

                           PREPARED STATEMENT

    We want to really hear from the FBI Director. So, I'm going 
to take a more extensive statement, ask unanimous consent to 
put it into the record, turn to Senator Kay Bailey Hutchison, 
and then we'll go right to questions. And, Senator Johnson, 
your opening remarks, if you have some, I'd like you to 
incorporate it in your questions. And we'll give you some 
wiggle room. Okay?
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
    Good morning and welcome to the second hearing of 2011 of the 
Commerce, Justice and Science (CJS) Subcommittee. Today, the CJS 
Subcommittee will hear from FBI Director Robert S. Mueller, III about 
the FBI's budget and priorities for fiscal year 2012.
    We continue our examination of the President's 2012 budget although 
we still have not finished 2011. I am mindful that whatever happens in 
our 2011 wrap-up will affect what the FBI can do in the future. We'll 
learn today what these cuts mean for the FBI.
    I acknowledge we are in uncertain times. The FBI is operating at 
$500 million below the President's 2011 request. We need to know how 
the FBI is addressing this cut and how it is affecting morale and staff 
retention.
    We'll begin with an unclassified hearing to focus on the FBI's 
general budget request, and then we will move to a closed hearing to 
discuss budget requests for the FBI's classified operations.
    We welcome Director Mueller to his last scheduled hearing before 
the CJS Subcommittee. He will be the longest serving FBI Director since 
J. Edgar Hoover and he is the only Director to serve out a full 10-year 
term. He came into this job just a week before the 9/11 terrorist 
attacks. His leadership has transformed the FBI from a traditional 
domestic law enforcement agency into a global anti-terrorism and anti-
crime police force keeping us safe from threats here at home.
    As Chairwoman I have three priorities when examining the FBI's 
budget--first, national security, or how the FBI is keeping America 
safe; second, community security, or how the FBI is keeping our 
families safe; and third, oversight and accountability, or how the FBI 
is ensuring our tax dollars are spent wisely.
    Today, we will learn more about how the FBI plans to use its fiscal 
year 2012 budget request to carry out its extraordinary 
responsibilities of keeping us safe from terrorism and violent crime, 
such as dismantling organized crime and drug cartels, combating gang 
violence, stopping illegal drug and gun smuggling, and catching child 
sexual predators.
    The President's budget request for the FBI in fiscal year 2012 is 
$8.1 billion--a $227 million, or 2.9 percent, increase above the 2010 
omnibus and current continuing resolution levels. Five highlights of 
this budget request include:
  --$129 million for gathering intelligence on cyber threats to stop 
        cyber crooks from hacking into U.S. networks;
  --$245 million for fighting mortgage fraud and white collar crime by 
        targeting scammers who prey on hard working families;
  --$89 million for tracking weapons of mass destruction (WMD) to 
        prevent terrorists from acquiring WMD materials;
  --$90 million for catching child predators and stopping sexual 
        deviants who exploit children on the Internet; and
  --$316 million to track international terrorist networks and expand 
        surveillance capabilities that help shut them down.
    Our Nation faces a growing and pervasive threat overseas from 
hackers, cyber spies, and cyber terrorists. Cyber security is a 
critical component to our Nation's infrastructure. We need safe and 
resilient networks to protect our online banking and commerce, 
electrical and power grids, air traffic control systems and digitalized 
records.
    In 2010, the CJS Subcommittee appropriated $118 million for the 
FBI's cyber efforts, called the Comprehensive National Cybersecurity 
Initiative. This year, the request is $129 million--an $11 million 
increase that will provide 14 new agents and 5 new professional staff. 
We will hear more about the details on the FBI's cyber efforts in the 
classified session, but I am pleased that the FBI is a key guardian of 
our Nation's cyber security.
    After 9/11, the FBI was charged with a new national security 
mission--to protect us from international terrorism and track WMD that 
could hurt the United States. Today, counterterrorism makes up more 
than 40 percent of the FBI's budget. The FBI requests $3.3 billion for 
counterterrorism activities--a $128 million, or 4 percent, increase 
above the current level. The FBI is using these funds to disrupt 
terrorist plots before they happen, investigate terrorist crimes after 
they occur, and to identify, track and defeat terrorist sleeper cells 
operating in the United States and overseas. I want to know if this 
budget request is enough to tackle all counterterrorism 
responsibilities including WMD, cyber computer intrusions, foreign 
counterintelligence, and critical incident response.
    I also want to know how the FBI is protecting Americans from 
violent crime in their communities. The budget requests $2.6 billion 
for traditional crime fighting efforts here in the United States--a 
$134 million, or 5.4 percent, increase above the current level of $2.5 
billion. This request allows the FBI to hire 35 new special agents to 
focus on cyber crimes and violent crimes in Indian country. It also 
supports FBI efforts to target sophisticated criminal organizations 
that prey on the vulnerable, traffic children for prostitution, and 
scam middle class families out of their homes. These organizations will 
do anything to make a profit. But I am worried that this budget request 
is flat to fight violent crime and gangs.
    I also want to know if this fiscal year 2012 request is enough to 
help protect hard-working families and their homes. Mortgage fraud is 
the FBI's number one white collar crime problem. The FBI is 
investigating more than 3,000 mortgage fraud cases and more than 55 
corporate fraud cases in the subprime mortgage industry. The budget 
requests $245 million to combat mortgage fraud with 94 mortgage fraud 
task forces made up of agents, forensic accountants, and financial 
analysts to investigate complex financial schemes.
    Director Mueller, I know you are with me. We want to send a clear 
message to the predators. No more scamming or preying on hardworking 
Americans. If you break the law, you will suffer the consequences.
    This budget request includes $90 million for the FBI to protect 
children by catching deviants who use the Internet to prey on them and 
break up international sex trafficking and prostitution rings. The FBI 
plays an important role in enforcing the Adam Walsh Act and it is 
responsible for monitoring and targeting Internet predators. In 2009, 
the FBI's Innocent Images national initiative convicted over 1,200 
producers, distributors and possessors of child pornography.
    Since 2003 when it was established, the FBI's Innocence Lost 
Initiative has rescued more than 1,100 children. The youngest victim 
rescued was 9 years old. The program has convicted more than 500 pimps, 
madams, and their associates who exploit children through prostitution. 
I want to hear from you if the 2012 request is sufficient to enhance 
child predator investigations and target predators before they strike 
so we can save children's lives.
    Any future plans for the FBI must protect taxpayers from Government 
boondoggles. We must ensure strict accountability, oversight, and 
management to ensure that taxpayer dollars are not wasted and avoid 
cost overruns and missed deadlines. I am concerned about many delays 
and cost overruns on the FBI's Sentinel program, which upgrades the 
electronic case management system used by analysts and agents. It is a 
technological tool to help protect our citizens.
    Last fall, you decided the FBI would take over management to 
implement and complete Sentinel--a move that was made to keep Sentinel 
from becoming another techno-boondoggle. I want to know where we are on 
Sentinel. What steps have you taken to ensure that Sentinel gets back 
on track? Where is Sentinel in the development and deployment process? 
How long will the program be delayed and how much will this cost?
    In conclusion, I want to say how proud I am of the men and women at 
the FBI who are fighting to keep America safe from terrorism and 
violent crimes. They are on the job 24 hours a day, seven days a week. 
We must ensure that the FBI has the resources it needs to protect the 
lives of 311 million Americans. But we also want to make sure the FBI 
is a good steward of taxpayer dollars. We have to make sure every 
dollar we spend to keep our Nation safe is a dollar well spent.
    I thank Director Mueller for his leadership. I look forward to 
continuing our productive relationship with both him and his team.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Madam Chairman.
    I do want to just take a moment to say thank you so much 
for your service. You are the second longest serving FBI 
Director in our Nation's history, after Hoover. So, you've had 
a major impact. You took on the job about a couple of weeks 
before 9/11. And after that time, of course, it was added to 
the mission of the FBI to take on counterterrorism. And so, 
you've had a huge impact on our law enforcement. And you have 
been so accessible. And I agree with everything the chairwoman 
said regarding your service. And we are sorry to see you go.
    Let me just say that, because of the changes that have 
happened during your time, the focus that you have now gone 
into, of course, is the counterterrorism, cybersecurity; that's 
all a whole new field, as well. And you've done very well. I do 
want to focus on the Southwest Border, because, Mr. Director, 
we're in a war there. And I just want to give a couple of 
statistics for the record:
    Since the beginning of last year, more than 3,000 drug-
related murders have been reported in Juarez, Mexico. It is, of 
course, just across the river from El Paso. And you have, of 
course, an office there. But, this is stunning. And it is 
coming over into our country. It is affecting our crime rates.
    Let me just give you a few excerpts from the director of 
the Department of Public Safety (DPS), who was testifying 
before a State legislative committee. He said he is very 
concerned that crime in Dallas, Houston, Austin, and San 
Antonio is very much connected to Mexican drug cartels 
operating through the potent prison gangs--the Texas Syndicate 
and Texas Mafia.
    Last year, law enforcement agencies operating in the Rio 
Grande Valley apprehended what they refer to as ``287 Other 
Than Mexicans,'' illegal immigrants from countries with active 
al Qaeda cells or Taliban activity, places like Yemen, Iran, 
Pakistan, and more. The Government Accountability Office has 
said that they believe we catch about 6.5 percent of the 
illegal criminal activity that is coming across our border. So, 
you can multiply the 287.
    And these people are very crafty. There are reports of 
instructions, in Arabic languages and foreign languages, on 
what to do when you get across the border--where you go, where 
your connections are. And so it's very troubling.
    The State has increased its resources--the State of Texas, 
which, of course, has the giant share of the border--but this 
is a Federal issue. And I am very concerned that your budget 
has $130 million out of $8.1 billion. Now, I am told that, in 
the recent Southwest Border supplemental, the FBI was denied 
additional resources. I understand--I am also told that the FBI 
was denied new border enhancements in the fiscal year 2012 
request. I want to know more about that--and I will ask, during 
the question period--because this war is going to affect our 
country, and it is as important as any war we're fighting, 
anywhere. And I hope that, because of the great record that the 
FBI has, that we will be able to fully commit the resources 
that are needed for this fight, because it's not thousands of 
miles away; it is on our border. And two Americans were killed 
at a border crossing just last week.
    And I've talked to the mayors of our major cities. They 
know that there are drug cartel activities in the four cities 
that were mentioned by the DPS director. So, that's going to be 
a major focus for me, I will tell you. And I will want to know 
more, what we can do and how we can make it a priority for the 
Justice Department to involve the FBI, because, where the FBI 
is, they--everyone says they are very helpful. All the local 
law enforcement people I talk to, the Drug Enforcement 
Administration (DEA), everyone is complimentary of the FBI 
input. But we have a pittance compared to what we need.
    I also will want to ask you about the shooting of the 
Immigration and Customs Enforcement (ICE) agents in Mexico, one 
of whom was killed. And you were tasked with a major part of 
the investigation. And I will want to know how that was being 
handled and if the Mexican Government was cooperative.
    So, these are the focuses, in addition to what the Senator 
from Maryland, the chairwoman of this subcommittee, has said. 
But you have a big job. You've done a great job. We need to 
know what we can do to make sure that you can operate in the 
future.
    Thank you.
    Senator Mikulski. Thank you, Senator Hutchison. And I'm so 
glad you're--you know, so persistent on this issue. And it's 
one of the reasons I also will have the classified hearing with 
the FBI at 11:15 a.m., because a lot of your questions really 
need to be talked about in a different forum, and at the level 
of detail I know you'll want in the answers.
    But, I want to pledge to you, on this Southwest Border 
issue, and to the Southwest Senators, this is an American 
issue. So, you're not fighting this by yourself. You can count 
on me as a full partner on this.
    Senator Hutchison. That means a lot. Thank you very much.
    Senator Mikulski. Director Mueller, why don't you begin 
your testimony.

              SUMMARY STATEMENT OF ROBERT S. MUELLER, III

    Mr. Mueller. Well, thank you, and good morning, Chairwoman 
Mikulski and Ranking Member Hutchison.
    And, at the outset, thank you for your remarks. I think 
we've worked exceptionally well together over the years, and I 
am tremendously appreciative of the support that this 
subcommittee has given, most particularly to the FBI, but also 
to me, personally. Thank you.
    And also, thank you for the opportunity to appear before 
you today.
    As you have started to point out, and I'll follow up on, 
the FBI now faces unprecedented and increasingly complex 
challenges. We must identify and stop terrorists before they 
launch attacks against our citizens. We must protect our 
Government, businesses, and critical infrastructure from 
espionage and from the potentially devastating impact of cyber-
based attacks. We must root out public corruption, fight white 
collar and organized crime, stop child predators, and protect 
civil rights. We must also ensure we are building a structure 
that will carry the FBI into the future by continuing to 
enhance our intelligence capabilities, improve our business 
practices and training, and develop the next generation of FBI 
leaders. We must do all of this while respecting the authority 
given to us under the Constitution, upholding civil liberties, 
and the rule of law. And we must also do this in what some 
would say are uncertain fiscal conditions.
    The challenges of carrying out this mission have never been 
greater, as the FBI has never faced a more complex threat 
environment than it does today. Over the past year, we have 
faced an extraordinary range of threats from terrorism, 
espionage, cyberattacks, and traditional crime.
    Let me, if I could, give you a brief overview with several 
examples. Last October, there were the attempted bombings on 
air cargo flights bound for the United States from Yemen, 
directed by al Qaeda in the Arabian Peninsula. Last May, there 
was the attempted car bombing in Times Square, aided by Tehrik-
e Taliban Pakistan, in Pakistan. These attempted attacks 
demonstrate how al Qaeda and its affiliates still have the 
intent to strike within the United States.
    In addition, there were a number of serious terror plots by 
lone offenders. Their targets ranged from a Martin Luther King 
Jr. Day march in Spokane, Washington, to a Christmas tree 
lighting ceremony in Portland, Oregon, to subway stations in 
the Washington, DC Metro system. The motives and methods of 
these plots were varied, making these among the most difficult 
threats to anticipate and then to combat.
    The espionage threat persisted as well. Last summer, there 
were the arrests of 10 Russian spies, known as illegals, who 
secretly blended into American society in order to 
clandestinely gather information for Russia. And we continue to 
make significant arrests for economic espionage as foreign 
interests seek to steal controlled technologies.
    The cyberintrusion at Google last year highlighted the 
potential danger from a sophisticated Internet attack. Along 
with countless other cyberincidents, these attacks threaten to 
undermine the integrity of the Internet and to victimize the 
businesses and people who rely on the Internet.
    In our criminal investigations, we continue to uncover 
billion dollar corporate and mortgage frauds that weaken the 
financial system and victimize investors, homeowners, and, 
ultimately, taxpayers.
    We also exposed healthcare scams involving false billings 
and fake treatments that endangered patients and fleeced 
Government healthcare programs.
    As pointed out, the extreme violence across our Southwest 
Border continued to impact the United States, as we saw and has 
already been pointed out, with the murders last March of 
American Consulate workers in Juarez, Mexico, and the shooting, 
last month of two ICE agents in Mexico.
    Throughout the year, there were numerous corruption cases 
that undermined the public trust, and countless violent gang 
cases that continue to take innocent lives and endanger our 
communities.
    As these examples demonstrate, the FBI's mission to protect 
the American people has never been broader, and the demands on 
the FBI have never been greater. To carry out these 
responsibilities, we need the Congress's continued support more 
than ever.
    The support from this subcommittee and the Congress has 
been an important part of the ongoing transformation of the 
FBI. A key element of this transformation has been the ability 
to recruit, hire, train, and develop the best and the brightest 
agents, analysts, and staff to meet the complex threats we face 
now and in the future, and the ability to put in place the 
information technology and infrastructure needed to perform our 
everyday work.
    I am concerned that our momentum, built up over the past 
several years with your support, is going to be adversely 
affected due to the constrained fiscal environment. The FBI 
strives to be a good steward of the funding the Congress 
provides, and we continually look for cost-saving initiatives 
and better business practices to make us more efficient. 
However, addressing the major threats and crime problems facing 
our Nation requires investments that cannot be offset by 
savings alone. If funded for the remainder of fiscal year 2011 
at prior year levels, the FBI will have to absorb more than 
$200 million in operating requirements and will have more than 
1,100 vacant positions by the end of the year. The fiscal year 
2012 budget that we are discussing today would actually provide 
a lower level of resources than the fiscal year 2011 request 
submitted last year, and will leave unaddressed gaps in our 
investigative and intelligence capabilities and capacities in 
all programs.
    I note that the proposed continuing resolution would fully 
fund the Department of Defense (DOD), while all other agencies 
would be extended, perhaps for 1 week. I strongly encourage 
this subcommittee to consider also fully funding the FBI in the 
continuing resolution. Under the continuing resolution, the FBI 
would be the only major partner in the intelligence community 
that is not fully funded. While our intelligence community 
partners would be able to proceed with planned initiatives and 
programs, the FBI could not. And we cannot be considered an 
equal partner in the intelligence arena without full funding.
    As was pointed out, approximately 60 percent of the FBI's 
budget is scored under the DOD-related budget function. Today, 
FBI agents, intelligence analysts, and professional staff stand 
side-by-side with the military in Afghanistan and elsewhere in 
the world, working together to keep our country and our 
citizens safe from attack. Full funding for the FBI, for which 
both the House and Senate were in agreement in their respective 
marks, would enable these critical dependencies and 
collaboration to continue without interruption.
    Last, let me say that we simply cannot afford to return to 
the pre-9/11 days, where hiring and staffing in the FBI was a 
roller coaster that left most field offices understaffed to 
deal with the terrorist and other threats we faced. Nor can we 
afford to return to the pre-9/11 days where funding uncertainty 
led to a degradation of the FBI's physical and information 
technology infrastructure.

                           PREPARED STATEMENT

    Let me finish by saying, I appreciate the opportunity to be 
here today to talk about our 2012 budget and, inevitably, the 
2011 continuing resolution. But, I also want to thank the 
subcommittee for your continued support on behalf of the men 
and women of the FBI.
    And I, of course, would be happy to answer any questions 
that you may have.
    Thank you.
    [The statement follows:]
              Prepared Statement of Robert S. Mueller, III
    Good morning Chairwoman Mikulski, Ranking Member Hutchison, and 
members of the subcommittee.
    On behalf of the more than 30,000 men and women of the Federal 
Bureau of Investigation (FBI), I would like to thank you for the years 
of support you have provided to the FBI. This subcommittee has been 
instrumental in ensuring the FBI has received the critical resources it 
needs to:
  --defend the United States against terrorism and foreign intelligence 
        threats;
  --uphold and enforce the criminal laws of the United States;
  --protect civil rights and civil liberties; and
  --provide leadership and criminal justice services to Federal, State, 
        municipal, and international agencies and partners.
    Since 9/11, the FBI has shifted to be an intelligence-led, threat-
focused organization, guided by clear operational strategies. The FBI 
is focused on predicting and preventing the threats we face, while 
engaging the communities we serve. This shift has led to a greater 
reliance on technology, collaboration with new partners, and human 
capital, requiring additional resources. FBI is a full member of the 
U.S. intelligence community and serves as a critical and singular link 
between the intelligence and law enforcement communities in the United 
States. FBI, as an organization, is in a unique and critical position 
to address national security and criminal threats that are increasingly 
intertwined. Our adversaries are evolving and using globalization to 
enhance their reach and effectiveness, creating new challenges in our 
efforts to counter their impact.
    Today, the diversity and complexity of the threats facing the 
Homeland has never been greater:
  --In the past year, the United States has been the target of 
        terrorist plots from three main sources:
    --al Qaeda;
    --al Qaeda's affiliates; and
    --homegrown extremists.
    Homegrown extremists are a growing concern and priority of the FBI, 
        as evidenced by the number of recent disruptions and arrests; 
        and
  --The asymmetric intelligence threat presented by certain foreign 
        governments endures as the damage from compromised sensitive 
        information and financial losses from economic espionage and 
        criminal activity remain significant.
  --Technological advancements and the Internet's expansion will 
        continue to empower malicious cyber actors to harm U.S. 
        national security through criminal and intelligence activities. 
        We must maintain our ability to keep pace with this rapidly 
        developing technology.
  --The FBI's efforts prosecuting financial crimes--including billion-
        dollar corporate and mortgage frauds, massive Ponzi schemes, 
        and sophisticated insider trading activities--remain essential 
        to protect investors and the financial system, as well as 
        homeowners and ultimately taxpayers. There also continue to be 
        insidious healthcare scams that endanger patients and fleece 
        Government healthcare programs of billions. Despite strong 
        enforcement, both public corruption and violent gang crimes 
        continue to endanger our communities.
    These examples underscore the complexity and breadth of the FBI's 
mission to protect the Nation in a post-9/11 world.
    The FBI's fiscal year 2012 budget request includes a total of $8.1 
billion in direct budget authority, including 33,469 permanent 
positions (12,993 special agents, 2,989 intelligence analysts, and 
17,487 professional staff). This funding, which consists of $8 billion 
in salaries and expenses and $81 million in construction, is critical 
to continue our progress acquiring the intelligence and investigative 
capabilities required to counter current and emerging national security 
and criminal threats.
    Consistent with the FBI's transformation to a threat-informed and 
intelligence-driven agency, the fiscal year 2012 budget request was 
formulated based upon our understanding of the major national security 
and criminal threats that the FBI must work to prevent, disrupt, and 
deter. We then identified the gaps and areas which required additional 
resources. As a result of this integrated process, the fiscal year 2012 
budget proposes $131.5 million for new or expanded initiatives and 181 
new positions, including 81 special agents, 3 intelligence analysts, 
and 97 professional staff. These additional resources will allow the 
FBI to improve its capacity to address threats in the priority areas of 
terrorism, computer intrusions, weapons of mass destruction, foreign 
counterintelligence, and violent crime.
    Let me briefly summarize the key national security threats and 
crime problems that this funding enables the FBI to address.
                       national security threats
    Terrorism.--The FBI is fully engaged in the worldwide effort to 
counter terrorism. We have taken that fight to our adversaries' own 
sanctuaries in the far corners of the world--Iraq, Afghanistan, 
Pakistan, Europe, Asia, and Africa. We have also worked to uncover 
terror cells and supporters within the United States, as well as 
disrupting terrorists' financial, communications, and operational 
lifelines at home and abroad.
    Al Qaeda remains our primary concern. Al Qaeda's intent to conduct 
high-profile attacks inside the United States is unwavering. While the 
overall structure of the group has diminished, its power to influence 
individuals and affiliates around the world has not. Today, we still 
confront the prospect of a large-scale attack by al Qaeda, but the 
growing threat from al Qaeda affiliates, as demonstrated in the 
attempted Christmas Day bombing and the failed Times Square bombing, is 
unprecedented. Al Qaeda and its affiliates may also attempt smaller 
attacks that require less planning and fewer operational steps--attacks 
that may be more difficult to detect and prevent.
    Threats from homegrown terrorists are also of growing concern. 
These individuals are harder to detect, easily able to connect with 
other extremists, and--in some instances--highly capable operationally. 
There is no typical profile of a homegrown terrorist; their experiences 
and motivating factors vary widely.
    The added problem of radicalization makes these threats more 
dangerous. No single factor explains why radicalization here at home 
may be more pronounced than in the past. American extremists appear to 
be attracted to wars in foreign countries, as we have seen a number of 
Americans travel overseas to train and fight with extremist groups. 
These individuals may be increasingly disenchanted with living in the 
United States, or angry about U.S. and Western foreign policy. The 
increase and availability of extremist propaganda in English can 
exacerbate the problem.
    The Internet has also become a key platform for spreading extremist 
propaganda and has been used as a tool for terrorist recruiting, 
training, and planning, and has been used as a means of social 
networking for like-minded extremists. Ten years ago, in the absence of 
the Internet, extremists would have operated in relative isolation, 
unlike today.
    In short, we have seen an increase in the sources of terrorism, an 
evolution in terrorist tactics and means of communication, and a wider 
array of terrorist targets here at home. All of this makes our mission 
that much more difficult and requires continued support.
    The fiscal year 2012 budget request includes 63 positions (34 
special agents) and $40.9 million to address these national security 
threats, including funding for surveillance resources to combat 
international terrorism and foreign intelligence threats, as well as 
funding for the High-Value Detainee Interrogation Group, Terrorist 
Screening Center operations, and increased information analysis and 
sharing capabilities.
    Intelligence.--Since 9/11, the FBI has dramatically shifted our 
intelligence program and capabilities to address emerging threats. We 
stood up the National Security Branch, created a Directorate of 
Intelligence, integrated our intelligence program with other agencies 
in the intelligence community, hired hundreds of intelligence analysts 
and linguists, and created Field Intelligence Groups (FIGs) in each of 
our 56 field offices. In short, the FBI improved and expanded our 
intelligence collection and analytical capabilities across the board.
    Today, we are collecting intelligence to better understand all 
threats--those we know about and those that have not yet materialized. 
We recognize that we must continue to refine our intelligence 
capabilities to stay ahead of these changing threats. We must function 
as a threat-driven, intelligence-led organization. The FBI recently 
restructured its FIGs, where each group now has clearly defined 
requirements for intelligence collection, use, and production. With 
this new structure, each office can better identify, assess, and attack 
emerging threats.
    We want to make sure that every agent in every field office 
approaches a given threat in the same manner, and can better turn 
information and intelligence into knowledge and action. The fiscal year 
2012 budget request includes $2.5 million to help with this endeavor.
    Cyber.--A cyber attack could have a similar impact as a well-placed 
bomb. To date, terrorists have not used the Internet to launch a full-
scale cyber attack, but they have executed numerous denial-of-service 
attacks and defaced numerous Web sites.
    Al Qaeda's online presence has become almost as potent as its 
physical presence. Extremists are not limiting their use of the 
Internet to recruitment or radicalization; they are using it to incite 
terrorism. Of course, the Internet is not only used to plan and execute 
attacks; it is also a target itself. Osama bin Laden long ago 
identified cyberspace as a means to damage both our economy and our 
morale--and countless extremists have taken this to heart.
    The FBI, with our partners in the intelligence community, believe 
the cyber terrorism threat is real and is rapidly expanding. Terrorists 
have shown a clear interest in pursuing hacking skills. And they will 
either train their own recruits or hire outsiders, with an eye toward 
coupling physical attacks with cyber attacks.
    The FBI pursues cyber threats from start to finish. We have cyber 
squads in each of our 56 field offices around the country, with more 
than 1,000 specially trained agents, analysts, and digital forensic 
examiners. Together, they run complex undercover operations and examine 
digital evidence. They share information with our law enforcement and 
intelligence partners. And they teach their counterparts--both at home 
and abroad--how best to investigate cyber threats.
    But the FBI cannot do it alone. The National Cyber Investigative 
Joint Task Force includes 18 law enforcement and intelligence agencies, 
working side-by-side to identify key players and schemes. This task 
force plays an important role in the administration's Comprehensive 
National Cybersecurity Initiative. Its goal is to predict and prevent 
that which is on the horizon, and then attribute and pursue the 
enterprises behind these attacks. The task force operates through 
Threat Focus Cells--smaller groups of agents, officers, and analysts 
from different agencies, focused on particular threats.
    Together, with law enforcement, the intelligence community, and our 
international and private sector partners, we are making progress, but 
there is significantly more to do. The fiscal year 2012 budget request 
includes 42 positions (14 special agents) and $18.6 million to enhance 
the FBI's investigatory capabilities and protect critical technology 
network infrastructure from malicious cyber intrusions as well as 
improve analysis of digital evidence.
    Technology and Tools.--The FBI has greatly improved the way we 
collect, analyze, and share information using technology. Intelligence 
provides the information we need, but technology further enables us to 
find the patterns and connections in that intelligence. Through 
sophisticated, searchable databases, we are working to track down known 
and suspected terrorists through biographical and biometric 
information, travel histories and financial records. We then share that 
information with those who need it, when they need it.
    For example, the FBI has developed the Data Integration and 
Visualization System (DIVS), with the goal to prioritize and integrate 
disparate datasets across the FBI. The FBI currently has investigative 
data that is stored and accessed in multiple systems. As a consequence, 
our personnel are spending too much time hunting for data, leaving them 
less time to analyze and share that data to stay ahead of threats. 
Furthermore, this stove-piped architecture and inefficient process 
increases enterprise costs and impedes the speed, effectiveness, and 
responsiveness of intelligence and investigative analysis.
    DIVS provides single sign-on, role-based access controls to analyze 
and link all FBI data that the user is lawfully allowed to see and will 
provide the means to efficiently feed FBI Secret data to the FBI Top 
Secret system. DIVS will not only significantly improve users' 
efficiency in searching multiple databases, it will ultimately help 
reduce or eliminate unnecessarily redundant data systems.
    In addition to creating new technologies, like DIVS, one lesson we 
have learned in recent years is the need to ensure that as new 
technology is introduced into the marketplace, FBI and its law 
enforcement partners maintain the technical capabilities to keep pace. 
In the ever-changing world of modern communications technologies, 
however, FBI and other Government agencies are facing a potentially 
widening gap between our legal authority to intercept electronic 
communications pursuant to court order and our practical ability to 
actually intercept those communications.
    As the gap between authority and capability widens, the Federal 
Government is increasingly unable to collect valuable evidence in cases 
ranging from child exploitation and pornography to organized crime and 
drug trafficking to terrorism and espionage--evidence that a court has 
authorized us to collect. We need to ensure that our capability to 
execute lawful court orders to intercept communications does not 
diminish as the volume and complexity of communications technologies 
expand.
    FBI's fiscal year 2012 budget request includes 23 positions--3 
special agents--and $20.5 million to advance DIVS development and to 
strengthen FBI's and our law enforcement partners' ability to 
successfully conduct lawfully authorized electronic surveillance, 
consistent with existing authorities, by establishing a Domestic 
Communications Assistance Center (DCAC).
    Weapons of Mass Destruction.--The FBI carries responsibility for 
responding to certain Weapons of Mass Destruction (WMD) threats in the 
United States, and the WMD Directorate carries out that critical 
charge. The Directorate was established to be a unique combination of 
law enforcement authorities, intelligence analysis capabilities, and 
technical subject matter expertise that exists nowhere else in the U.S. 
Government. The creation of the Directorate enabled the FBI to focus 
its WMD preparedness, prevention, and response capabilities in a 
single, focused organization rather than through decentralized 
responsibilities across divisions.
    The global WMD threat to the United States and its interests 
continues to be a serious concern. The WMD Commission has warned that 
without greater urgency and decisive action, it is more likely than not 
that a WMD will be used in a terrorist attack somewhere in the world by 
the end of 2013. Osama bin Laden has also said that obtaining a WMD is 
a ``religious duty'' and is reported to have sought to perpetrate a 
``Hiroshima'' on U.S. soil.
    Globalization makes it easier for terrorists, other groups, and 
lone actors to gain access to and transfer WMD materials, knowledge, 
and technology throughout the world. As noted in the WMD Commission's 
report, those intent on using WMDs have been active and as such ``the 
margin of safety is shrinking, not growing''.
    The frequency of high-profile acts of terrorism has increased over 
the past decade. Indicators of this increasing threat include the 9/11 
attacks, the 2001 Amerithrax letters, the possession of WMD-related 
materials by Aafia Siddiqui when she was captured in 2008, and multiple 
attempts by terrorists at home and abroad to use explosives improvised 
from basic chemical precursors. The challenge presented by these 
threats is compounded by the large volume of hoax threats that distract 
and divert law enforcement agencies from addressing real threats.
    The FBI must be poised to handle any WMD event, hoax or real. 
Therefore, the fiscal year 2012 budget request includes 13 positions 
(including 6 special agent bomb technicians) and $40 million to acquire 
the necessary aircraft required to respond to a WMD incident and render 
a device safe.
                            criminal threats
    The FBI faces many criminal threats, from white collar crime to 
organized crime to violent crime and gangs to the extreme violence 
along the Southwest Border. While all of these threats remain, I would 
like to take the opportunity to focus on two of these threats--
investigations along the Southwest Border and violent crime occurring 
in Indian country.
    Southwest Border.--The United States border with Mexico extends 
nearly 2,000 miles, from San Diego, California to Brownsville, Texas. 
At too many points along the way, drug cartels transport kilos of 
cocaine and marijuana, gangs kidnap and murder innocent civilians, 
traffickers smuggle human cargo, and corrupt public officials line 
their pockets by looking the other way. Any one of these offenses 
represents a challenge to law enforcement. Taken together, they 
constitute a threat not only to the safety of our border communities, 
but to the security of the entire country.
    The severity of this problem is highlighted by the following 
statistics:
  --$18 billion-$39 billion flow annually from the United States across 
        the Southwest Border to enrich the Mexican drug cartels.
  --2,600 drug-related murders in Juarez, Mexico in 2009.
  --28,000 drug-related murders in all of Mexico since 2006.
  --93 percent of all South American cocaine moves through Mexico on 
        its way to the United States.
  --701,000 kilograms of marijuana seized during the first 5 months of 
        2010 in Southwest Border States (Arizona, California, New 
        Mexico, and Texas).
  --6,154 individual seizures of marijuana, cocaine, heroin, and 
        methamphetamines during the first 5 months of 2010 in the 
        Southwest Border States.
    The FBI has 13 border corruption task forces, but to address 
security along the Southwest Border, we have developed an intelligence-
led, cross-programmatic strategy to penetrate, disrupt, and dismantle 
the most dangerous organizations and individuals. This strategy begins 
with the deployment of hybrid squads in hotspot locations. The primary 
goal of the hybrid squad model is to bring expertise from multiple 
criminal programs into these dynamic, multi-faceted threats and then 
target, disrupt, and dismantle these organizations. Hybrid squads 
consist of multi-disciplinary teams of special agents, intelligence 
analysts, staff operations specialists, and other professionals. The 
agent composition on the squads provides different backgrounds and 
functional expertise, ranging from violent gangs, public corruption, 
and violent crimes.
    The FBI's fiscal year 2012 budget request includes funding to 
continue these efforts, which were initially provided through 
supplemental funding in fiscal year 2010.
    Indian Country.--The FBI has the primary Federal law enforcement 
authority for felony crimes in Indian country. Even with demands from 
other threats, Indian country law enforcement remains a priority for 
the FBI. Last year, the FBI was handling more than 2,400 Indian country 
investigations on approximately 200 reservations and more than 400 
Indian gaming facilities throughout 28 States. Approximately 75 percent 
of all FBI Indian country investigations involve homicide, crimes 
against children, or felony assaults. American Indians and Alaska 
Natives experience violent crime at far higher rates than other 
Americans. Violence against Native women and children is a particular 
problem, with some counties facing murder rates against Native women 
well over 10 times the national average.'' \1\
---------------------------------------------------------------------------
    \1\ Zaykowski, Kallmyer, Poteyeva, & Lanier (August 2008), Violence 
Against American Indian and Alaska Native Women and the Criminal 
Justice Response: What is Known, Bachman (NCJ #223691), at 5, http://
www.ncjrs.gov/pdffiles1/nij/grants/223691.pdf.
---------------------------------------------------------------------------
    Complex jurisdictional issues and the dynamic and growing threat in 
Indian country requires additional FBI presence. Currently, the FBI has 
18 Safe Trails Task Forces focused on drugs, gangs, and violent crimes 
in Indian country. The gang threat on Indian reservations has become 
evident to the tribal community leaders, and gang-related violent crime 
is reported to be increasing. Tribal communities have reported that 
tribal members are bringing back gang ideology from major cities, and 
drug-trafficking organizations are recruiting tribal members.
    In order to address this situation, the FBI's fiscal year 2012 
budget request includes 40 positions (24 special agents) and $9 million 
to bolster existing Safe Trails Task Forces and to provide additional 
investigative resources to address a significant violent crime threat 
in Indian country.
                                offsets
    The FBI, like all Federal organizations, must do its part to create 
efficiencies. Although the FBI's fiscal year 2012 budget request 
includes $131.5 million in program increases, it is offset, in part, by 
almost $70 million in program reductions. These offsets include $26.3 
million to reduce funding for the FBI's Secure Work Environment 
program, which enables the FBI's national security workforce the 
ability to access top secret information within the FBI and with 
intelligence community partners; almost $1 million to eliminate and 
consolidate FBI Violent Crime and Gang Task Forces; a $15 million 
reduction to Sentinel (the FBI's case management system); $6.3 million 
to reduce support of the relocation program, which strategically 
relocates staff to meet organizational needs and carry out mission 
requirements; almost $1 million to eliminate 12 FBI resident agency 
offices across the country; a $5.8 million reduction to the FBI's 
ability to develop new tools to identify and analyze network 
intrusions; a $2.6 million reduction as a result of surveillance 
program efficiencies; almost $1 million to reduce the amount requested 
to hire and support special agents and intelligence analysts; $5.7 
million to delay the refreshment cycle of FBI desktop and laptop 
computers--delaying refreshment from 4 years to 5 or more years; and a 
$5.9 million reduction for administrative efficiencies, including 
funding for travel, equipment, conferences and office supplies.
                               conclusion
    Chairwoman Mikulski, Ranking Member Hutchison, and members of the 
subcommittee, I want to thank you for this opportunity to discuss the 
FBI's priorities and detail new investments sought for fiscal year 
2012. Madam Chairwoman, let me again acknowledge the leadership and 
support that you and this subcommittee have provided to the FBI. The 
Congress' funding of critical investments in people and technology are 
making a difference every day at FBI offices in the United States and 
around the world, and we thank you for that support.
    I look forward to any questions you may have.

    Senator Mikulski. Well, Mr. Director, thank you very much 
for that candid testimony.
    First of all, again, we want to thank you for your service, 
but we want to thank everybody who works at the FBI for what 
they do, because we know we have highly trained, highly 
dedicated special agents. But everybody who works at the FBI 
feels it's fighting the bad guys, whether it's the Secretary, 
whether it's the people who work in procurement, analysts, 
linguists, and so on. Everybody feels they're a part of the FBI 
family, part of the FBI crime-fighting, terrorist-tracking 
team. And I'm deeply--so, we want to thank them for what they 
do.
    Now, this takes us to this continuing resolution situation. 
I think my colleagues did not realize that many of the people 
who work at the FBI would be considered nonessential, that you 
might have to furlough people. And then, the long-range 
consequences of trying to get caught up, between any cuts at 
the FBI, with the Spartan funding for 2012, would leave you 
with 1,000 vacancies.
    Could you please, today, elaborate on what are the 
consequences, number one, of a shutdown, and number two, could 
you elaborate on what you said in your opening remarks about 
where we are in this continuing resolution?

                OPERATING UNDER A CONTINUING RESOLUTION

    Mr. Mueller. Well, there are a number of aspects that are 
disconcerting, at best, in terms of the proposed shutdown. 
Already, we've had to expend substantial manpower anticipating 
and preparing for the shutdown. I will say that most agents, 
analysts, and others that are involved in ongoing 
investigations will be considered critical. But, there are a 
number of areas, particularly at headquarters, where they would 
be deemed noncritical, and the initiatives, whether they relate 
to child pornography or cyber or other arenas, particularly on 
the criminal side, will suffer and have to be put on hold.
    Training for our new agents, for the National Academy, and 
for State and local law enforcement that is ongoing would 
undoubtedly be disrupted. In some sense, where we have had, I 
believe, a great deal of momentum to transform the FBI, this 
will be put on hold, of course, during the extent of any 
particular shutdown.
    Turning to the second issue, and that is the impact of the 
continuing resolution. As I pointed out in my opening remarks, 
this would dramatically set us back. And let me, if I could, 
give you an example----
    Senator Mikulski. Please.
    Mr. Mueller [continuing]. In the mortgage fraud arena, 
which you mentioned earlier.
    Because of the mortgage fraud crisis in 2009--and in 2010--
there was a supplemental relating to financial fraud.
    Senator Mikulski. Right.
    Mr. Mueller. We were given approximately 200 slots to 
address this crisis by the Congress. It was a supplemental, so 
it was a one-time payment for these individuals. And of course, 
we are seeking the recurrence so that we can keep those persons 
onboard. The fact that we are looking at a 2010 base for our 
2011 budget means that we do not get those slots. We also had 
put in, for the 2011 budget, a request for another 150 
personnel to address the crisis, which, with the previous 200 
in 2010, would come to 350 persons to address the mortgage 
fraud crisis. We are not going to get those individuals. They 
are part of the 1,100 vacancies that we will be unable to fill 
if we are not given an anomaly or some other relief from what 
is proposed in the continuing resolution that is currently 
being discussed, at a time when the number of suspicious 
activity reports from financial institutions grew to almost 
70,000 back in 2010.
    So, acknowledged by the Congress as a threat to the 
financial institutions, we've sought funds, and we anticipate 
getting those bodies onboard. In some cases, we have. But we're 
not going to be able to get the funding to sustain the momentum 
in addressing that particular issue.
    Senator Mikulski. Well, I'm going to make sure my 
colleagues have questions, here. And my questions related to 
cybersecurity, et cetera, I'll save for the other hearing 
environment. But, I----
    Mr. Mueller. May I add one----
    Senator Mikulski. Yes.
    Mr. Mueller. I'm sorry to interrupt.
    Senator Mikulski. Let me--go ahead. Please, Director.
    Mr. Mueller. One other thing is--I talked about what we got 
in 2010, in terms of 200 funded staffing level, and then 
another 150 would have been in the 2011 request. We're here 
talking about 2012. We did not get additional resources in the 
2012 budget.
    Senator Mikulski. That's right.
    Mr. Mueller. We assumed, and persons looking at our budget 
assumed, that we had enhanced our capabilities by 350. So, 
we're not even discussing getting additional mortgage fraud 
resources in 2012, because we had assumed that we would be 
beefed up by the time that we were discussing the 2012 budget.
    Senator Mikulski. So, you really get a triple hit.
    Mr. Mueller. We do.
    Senator Mikulski. You got a hit in the continuing 
resolution now, which could really be a hit. You got a hit in 
the 2011. And you get a hit in 2012.
    Mr. Mueller. Yes, ma'am.
    Senator Mikulski. Now--but, just for purposes of the 
subcommittee background, colleagues, this was the mortgage 
fraud initiative and it shows the way we tried to work with 
agility in meeting the contemporary needs--this was a 
bipartisan effort in fighting mortgage fraud that came from 
Senator Shelby and myself--Senator Shelby, ranking member on 
Banking, who really knew the stuff and what was needed. And we 
worked together to jumpstart the FBI dealing with mortgage 
fraud that requires--Mr. Director, don't you have really unique 
skills in things like forensic accounting?
    Mr. Mueller. We do.
    Senator Mikulski. So, it wasn't just like 300 people that, 
you know, you can get off the shelf from local law enforcement.
    Mr. Mueller. They have to be very well trained, experienced 
agents to do white-collar cases, particularly the multimillion 
dollar mortgage fraud cases.
    Senator Mikulski. Like Madoff.
    Mr. Mueller. The Madoff case was a Ponzi scheme, but, in 
addition to the mortgage fraud crisis, where we have more than 
3,000 cases, we have securities fraud and we have corporate 
fraud. You have the Madoffs, the Ponzi schemes that we're also 
responsible for investigating. The agents to investigate it 
have to have some experience in the financial arena. Forensic 
accountants are absolutely indispensable. Analysts not only 
work on the current caseload, but anticipate the next type of 
crisis, and are tremendously important as well. All of these 
are part and parcel of those positions that we had started 
growing in 2010 and anticipated to continue in 2011 and 2012.
    Senator Mikulski. Well, I'm going to turn to Senator 
Hutchison. But, what I wanted my colleagues to see, some new to 
this subcommittee, this was a bipartisan effort to return to a 
national situation that was identified by the ranking member, 
and then we worked together on it. And now, we don't want it to 
sputter out. So, Senator Hutchison.
    Senator Hutchison. Well, thank you, Madam Chairman.
    I want to ask you, Mr. Director, about the lack of support 
for the Southwest Border efforts--the $130 million. And if you 
would comment on the status of your request of the Justice 
Department for more funds, and what you think are the highest 
priorities for the Southwest Border that you would use more 
funds to address.

                        SOUTHWEST BORDER FUNDING

    Mr. Mueller. Well, we did obtain some funds from the 
Southwest Border supplemental.
    Senator Hutchison. The supplemental.
    Mr. Mueller. And our requests throughout the years has been 
generally directed at specific targeted activities where we 
have some degree of expertise. We have a number of public 
corruption cases that we handle along the border. We have 14 
border corruption task forces that we operate with other 
participants.
    Another aspect that you mentioned was the violence that 
crosses the border. There had been a spate of kidnappings, 
where there are individuals who may live in the United States, 
but have either businesses or family in Mexico who were 
kidnapped in Mexico, and the victim's families would be in the 
United States. We developed a series of task forces to address 
that. But that is still a continuing issue for us.
    We have more than 500 agents who are working under the 
Organized Crime Drug Enforcement Task Force (OCDETF) program. 
They're looking at criminal enterprises, the drug-trafficking 
organizations.
    And along the same lines, we have had recent successes in 
addressing Barrio Azteca. I'm sure you're familiar with that 
prison gang that has cross-border roots and has grown 
substantially over the last several years. That comes out of 
our working on what we call our ``criminal enterprise cases.''
    Two areas of initiatives where we have sought money, have 
gotten some money, and relate to intelligence. We have put 
together an intelligence unit down in El Paso that pulls in 
intelligence for all of our border offices, as well as 
headquarters and intelligence with our legal attache office in 
Mexico City. We share that intelligence with DEA and others in 
the intelligence community that are also colocated in El Paso.
    Senator Hutchison. Are you saying you need more for that to 
be completely effective?
    Mr. Mueller. Yes, we could always use more funds to expand 
on the intelligence arena.
    But, we also have gotten funds for what we call ``hybrid 
squads'' that pull together agents who have expertise in money 
laundering and narcotics trafficking, in public corruption and 
the various programs that are impacted along the border. We 
have, I think, close to 10 hybrid squads, at this point, that 
bring these various skill sets together, and they have been 
very effective in addressing the criminal issues that relate to 
the Southwest Border.
    Senator Hutchison. Well, my information says that you would 
be facing a deficit of $200 million if you're left at fiscal 
year 2010 levels in that particular hybrid squad----
    Mr. Mueller. I think that may be true. Excuse me just a 
second.
    Yes, you're right. I just wanted to check and make certain 
that the $200 million is the overall deficit that we will face, 
not just in the hybrid squads, but if the continuing resolution 
is passed, as is anticipated, then we'll have the $200 million 
deficit, and in that $200 million deficit----
    Senator Hutchison. Is the----
    Mr. Mueller [continuing]. Are funds for the hybrid squads.
    Senator Hutchison. Let me ask you another question on this 
crossing that we're finding of other-than-Mexican entrants, 
illegally, into our country. And it's the Somalian issue. We 
know that, through Big Bend, a group of Somali illegal 
immigrants doing criminal activity were apprehended, because 
the park officials, the park rangers, noticed and were alert 
and went to the Border Patrol. And the Border Patrol then 
apprehended these individuals at the next border checkpoint. 
And they were tried and found guilty. But, you and I discussed 
that we have a problem with Somalis who are engaged in 
terrorist activities, because there's no government to which 
they can be returned. How are you dealing with that? And how 
can we be helpful?
    Mr. Mueller. Well, it is a continuing issue. From our 
perspective, our role is to interview any of the special-
interest aliens that come across the border, regardless of the 
country of origin, but particularly those who are coming across 
the border from those countries that are known to harbor 
terrorists. We work with Customs and Border Patrol (CBP) to not 
only identify but to interview and determine the threat that 
any of these individuals present.
    With regard to Somalis who show up on the border, I do 
believe it is accurate that decisions have to be made. 
Inevitably, they are seeking asylum, and decisions have to be 
made whether they are legitimate asylum seekers, which is done 
by, quite obviously, the Department of Homeland Security (DHS).
    Senator Hutchison. Right.
    Mr. Mueller. We work very closely to try to ferret out 
those who are here with legitimate asylum concerns and others 
who are here for other purposes. I would be happy, in closed 
session, to elaborate a little bit more on the numbers and what 
we have found.
    Senator Hutchison. Well, let me just say, I have a number 
of questions for the closed session. I'd like to give my other 
colleagues a chance to question you, as well. And my time is 
up.
    So, thank you very much.
    Mr. Mueller. Thank you.
    Senator Mikulski. We're going to go to Senator Lautenberg, 
Senator Johnson, and then Senator Pryor.
    Senator Lautenberg. Thank you, Madam Chairman.
    And, Director Mueller, thank you for the job that you've 
done.
    Mr. Mueller. Thank you, Sir.
    Senator Lautenberg. You've elevated the view of the FBI and 
the complicated tasks that it has to highly professionally 
skilled, and a very efficient team, and we thank you for your 
work.
    Life has gotten more complicated--things that we never 
thought about before, about people who are willing to take 
their lives to kill others; the cyber side of things. All of 
these are relatively new findings in the lives we live. And it 
has made it tougher, and requires more resources.
    And I'll try to ask you my questions in short form, and 
maybe we get going, because I'm sorry that I can't join you in 
the next meeting.

                               BRADY LAW

    In Tucson, the shooter used a high-capacity ammunition 
clip, killed 6 people, wounded 13, and was tackled when he was 
trying to reload. So, such clips were banned until 2004. And 
they were part of an expired assault weapons ban. And now, even 
former Vice President Dick Cheney has suggested that maybe it's 
time to reinstate this ban--it may be appropriate to do so. So, 
what do you think about it?
    Mr. Mueller. I think I'll speak generally, and leave the 
specific comments on particular legislation to the Department 
of Justice. But, anybody in law enforcement is concerned today 
about the high-velocity, high-caliber automatic/semi-automatic 
weapons, and the threat of those weapons falling into the hands 
of criminals. I, like just about anybody involved in law 
enforcement, am supportive of areas in which we can lessen the 
threat of weapons in the hands of criminals, particularly those 
weapons that do substantial damage.
    Senator Lautenberg. Yes. Because that magazine is designed 
for military and law enforcement use, and it should not fall 
into the hands of people who don't have a purpose other than 
malice to deal with it.
    The Brady law, Mr. Director, requires gun purchasers to 
undergo background checks to make sure they're not felons, 
convicted domestic abusers, or severely mentally ill. But, the 
gun show loophole allows anyone to walk into that gun show--it 
could be the most known criminal--put down the money, and walk 
away with guns. And we hear a lot about the need to enforce the 
laws that we have on the books. What effect does the gun show 
loophole have on our ability to enforce the Brady law, which 
says that you shouldn't be able to--that people like that 
should not be able to get gun permits?
    Mr. Mueller. Well, again, I'll talk generally, as a member 
of the law enforcement community, where to the extent that we 
can keep weapons out of the hands of criminals, we generally 
are supportive.

                           GUN SHOW LOOPHOLE

    Senator Lautenberg. Well, what do you make about the gun 
show loophole, Mr. Mueller?
    Mr. Mueller. To the extent that we do not have a mechanism 
of assuring that persons who have a criminal past or a reason 
for not being given a weapon, I think everybody in law 
enforcement would be supportive of--some mechanism that would--
--
    Senator Lautenberg. I assume that's a ``Yes.'' and that you 
think the gun show loophole ought to be closed. Do you want to 
correct me?
    Mr. Mueller. I have nothing further to say, other than, 
speaking generally for law enforcement, there are very few of 
us who would disagree with the desirability of having screening 
mechanisms that would enable us to keep the guns out of these 
hands of those persons who should not have them.

                        TERRORIST ACCESS TO GUNS

    Senator Lautenberg. Okay. The Federal law allows people on 
the terror watch list to legally purchase a gun or even 
explosives. In response to a letter I sent to you in 2005, the 
Department of Justice recommended giving the Attorney General 
the power to deny guns and explosives to a terror suspect. And 
I've introduced a bill that would do that.
    Now, Attorney General Holder has expressed support for 
closing the terror gap in our laws. Do you think it's time to 
close the terror gap that exists?
    Mr. Mueller. I would say this is a complicated issue. I 
clearly want to keep guns out of the hands of would-be 
terrorists. It requires looking at persons who are on the 
terrorist watch list, and the basis for putting persons on the 
terrorist watch list. But, I think, generally, it goes to what 
I said before, that if you're trying to prevent terrorist 
attacks and you're trying to prevent persons who should not 
have weapons from getting weapons to undertake terrorist 
attacks, a screening mechanism is something that all of us 
believe is important.
    Senator Lautenberg. Director Mueller, do you--is there some 
faulty process in putting people on the terrorist watch list? 
Is it an unreliable list?
    Mr. Mueller. No, I don't believe so, at all.
    Senator Lautenberg. Okay. So, it strikes me as kind of an 
anomaly that people who are on a list that says these are 
suspects for terror, and they can walk in and buy a gun. And 
we've seen a couple of instances where some of these permits 
were permitted to go through and created havoc, in terms of 
discovering that they were involved with explosives, et cetera.
    Mr. Mueller. And I share your concern.

             PORT NEWARK AND LIBERTY INTERNATIONAL AIRPORT

    Senator Lautenberg. Can I ask one more question, Madam 
Chairman? And that is, the stretch between Port Newark and 
Liberty International Airport has been identified--by the FBI, 
I might add--as the most dangerous area in America for a 
terrorist attack. There are chemical manufacturers, there are 
rail systems and the port--all kinds of things. And 12 million 
people live within a 12-mile radius of that 2-mile stretch. An 
attack on this area could not only cause untold death and 
injury, but also cripple the economy. And last year I believe 
you said that additional resources would go toward protecting 
this 2-mile area. Are there specific items in this budget 
request that will help the FBI protect this area further?
    Mr. Mueller. Well, let me start by saying that I've 
appeared before this subcommittee annually for a number of 
years now, and I know this is a topic that we would discuss 
each year, and have. I can assure you that since we've had the 
original discussion, and each year it's raised, we go back to 
make certain that which we have put in place to address this 
particular strip of territory--the Homeland Security Task 
Force, the Joint Terrorism Task Force (JTTF) is doing 
everything it can to assure that there is not an attack there. 
And I am continuously reassured that is the case.
    Going to the question of whether there is anything 
specifically in the budget request that would address that, I'd 
have to get back to you on it.
    [The information follows:]
               Budget Request for Resources in New Jersey
    The Federal Bureau of investigation's (FBI) fiscal year 2012 
request to the Congress does not include an enhancement to specifically 
address the stretch between Port Newark and Liberty International 
Airport, however, the FBI and the Department of Homeland Security, 
working through Task Forces, are working diligently to combat any 
threats and ensure the area remains safe.

    Senator Lautenberg. Thanks very much. And I would urge you 
to hang around as long as you can. I've tried it, and I like 
it.
    Thank you very much.
    Senator Mikulski. Senator Johnson.
    Senator Johnson. Thank you, Madam Chairwoman, Director 
Mueller, again thank you for your service, not only as FBI 
Director, but all your public service, including being a U.S. 
marine.
    I'm the new kid on the block here, so I'm going to try--in 
my questions here, try and determine the priorities of the 
Department. I'm an accountant, so I like doing that, actually 
using the budget process, in terms of where you spend your 
money.

                       FBI BUDGET PRIORITIZATION

    So, first of all, in your budgeting process, do you 
categorize the areas of your concern in the--so I can kind of 
figure out where the money goes?
    Mr. Mueller. Absolutely. There are two processes we go 
through. One is the programmatic prioritization. One of the 
first steps we took after September 11 was setting programmatic 
priorities for the organization as a whole, simply put, so 
everybody understood what those priorities are. And they are 
the same priorities today: on the national security side, 
counterterrorism, counterintelligence, and cyber--protecting 
the country from terrorist attacks, theft of our secrets, and 
cyberattacks; on the criminal side, it's public corruption and 
civil rights, followed by transnational/international organized 
crime, followed by substantial white-collar crime and violent 
crime.
    Everyone, from top to bottom, knows that these are the 
eight programmatic priorities. There are two more. One is to 
understand that our successes depended on our cooperation with, 
and support of, State and local law enforcement and our persons 
overseas, and the necessity of bringing the FBI into the 
technological age.
    Our budget process is set up so that if you want additional 
personnel and additional resources, they have to fit into the 
budget framework.
    On the other side, we have initiatives that we identify 
each year--10 or so initiatives. One initiative this last year 
was to establish regional intelligence centers to complement 
what we do throughout the country. There are about six of 
those.
    So, our budget process sets the priorities first, and then 
everybody who wishes to benefit--and by that, I mean our 
various programs--have to understand where they fit in the 
prioritization process.
    Senator Johnson. In round numbers, can you give me the top 
four or five, in terms of how much is spent in these areas, 
then?
    Mr. Mueller. Not off the top of my head. I will tell you 
that the way I look at it, in some sense, is we've got two 
sides of the house. One is the criminal side of the house which 
we've done traditionally for 100 years. The other is national 
security.
    Senator Johnson. Can you give me numbers on those?
    Mr. Mueller. About 50/50.
    Senator Johnson. It's about 50/50.
    Mr. Mueller. About 50/50. It used to be, before September 
11, we had about 10,000 agents on the street. About 7,000 were 
working criminal programs and about 3,000 were working national 
security. We're up a couple thousand more. So, on the street we 
have maybe 6,000 agents who are doing the criminal programs and 
approximately another 6,000 who are doing the national security 
programs.
    The one point I would make is that we had to move 2,000 
agents from the criminal programs over to national security in 
the wake of September 11. There has not been a backfill, 
really, for those bodies.
    Senator Johnson. So, you--prior to 9/11, you had about 
10,000 employees, and now you've got about 32,000? 31,500?
    Mr. Mueller. We've got about 35,000 employees, now. I was 
talking about agents on the street. In other words----
    Senator Johnson. Okay.
    Mr. Mueller [continuing]. Not agents at headquarters, but 
those that are actually out there doing investigations, of 
which we had approximately 10,000 prior to September 11.
    Senator Johnson. How many agents do you have right now, 
then?
    Mr. Mueller. We have approximately 13,800 agents now, 
almost 14,000 agents. And the total in the FBI is more than 
35,000 now.
    Senator Johnson. So, how are those split, then, between the 
two top categories, on criminal versus counterterrorism?
    Mr. Mueller. You mean of the agents?
    Senator Johnson. Agents, correct, on the street.
    Mr. Mueller. It's about 50/50, still.
    Senator Johnson. Okay. So, again, you took 2,000 from 
criminal, basically, and put that into counterterrorism.
    Mr. Mueller. Yes.
    Senator Johnson. And then, you added probably about 3,000.
    Mr. Mueller. Yes. Approximately 2,700.
    Senator Johnson. Okay.
    Mr. Mueller. But most of the resources we have received 
over the years have been in support of the national security 
function, in building up the national security side of the 
house.
    Senator Johnson. Okay, good. I mean, that just gives me a 
feel for the priorities.

                             MORTGAGE FRAUD

    Can you describe who's the--who are the targets? I mean, 
what--who are the criminals in the mortgage--in--this in the 
mortgage fraud crisis? I'm--I need to be brought up to speed on 
this.
    Mr. Mueller. Well, they go from entities and individuals on 
Wall Street to various different types of schemes and scams in 
the various communities, which might involve the builders, the 
appraisers, cooperating homeowners, and Realtors. There are a 
variety of schemes that were used to suck money out of the 
mortgage market to benefit persons, both small and large, 
during that crisis. So, we have, from bottom to top, the 
investigations--some very large investigations where there are 
multimillion-dollar losses, to those investigations where there 
was an ongoing conspiracy for 2 or 3 years, where you might 
involve a real estate agent, the appraiser that was jimmying 
the appraisals, and cooperating homeowners and builders.
    Senator Johnson. Can--just real quick--does that still 
pose--are we kind of mopping up after the damage, or does this 
still pose a pretty significant threat to our financial system?
    Mr. Mueller. I think we are on the downslope of the issue. 
What I find is that white collar crime is cyclical, in some 
sense. Back in 2002, 2003, we had Enron, we had WorldCom, we 
had HealthSouth, we had any number of large corporations that 
we were investigating for fiddling the books, particularly in 
their quarterlies and the like. And we had to ramp up to 
address that particular crisis.
    This is a crisis we have ramped up to address, and we're on 
the downslope. Our concern, if any, is, apart from the 
homeowner mortgage crisis, to the commercial mortgage arena, in 
which we have seen an uptick in fraudulent activities, while 
there's been, I would say, a slowed growth in the homeowner 
mortgage set of cases.
    Senator Johnson. Okay. Thank you.
    Senator Mikulski. Part of the reason there's been a slow 
growth is because they've been prosecuted, and they know the 
FBI will come after them.
    Mr. Mueller. Yes, I should have alerted you to that. Yes. 
The deterrence gets out there. You've seen people hauled away 
in handcuffs.
    Senator Mikulski. In other words, these are bottom fishers. 
I mean, the prosecutions have been a form of prevention of 
further activity.
    But, Senator Johnson, if you want to have additional 
briefings from the FBI, they'll be happy to talk with you.
    Mr. Mueller. Be happy to do that.
    Senator Mikulski. Senator Pryor and--then Senator Collins.
    Senator Pryor. Thank you, Madam Chair.
    And thank you, Mr. Director.
    Mr. Mueller. Senator.
    Senator Pryor. And it's always good to see you. Thank you 
for being here today.

                            SOUTHWEST BORDER

    For my first few questions, I'd like to focus on the 
Southwest Border, and particularly on the Mexican drug cartels. 
My first question is somewhat of a followup to Senator 
Hutchison's questions.
    We had a hearing last week, in one of the Homeland Security 
subcommittees, where we talked about the new and innovative 
ways that drug traffickers are trying to get their product into 
the United States illegally. It's everything from tunnels to 
catapults to fake company vehicles, vehicles that have been 
painted up like a delivery truck, to submarines, to ultralight 
aircraft. They're just innovating like crazy to try to get 
these illegal drugs into the United States.
    And sort of a general question would be--I know that you 
are working on this; I know DEA, CBP--everybody really seems to 
be working on this. But, are we getting it right? That's just a 
general question. Are we allocating enough resources? Do we 
have enough focus on those Mexican drug cartels? Are we getting 
it right down there?
    Mr. Mueller. In some sense, we're always reacting to the 
innovation that you discussed. If you take something like 
ultralights, we, along with DEA and others along the Southwest 
Border, have addressed this particular concern, and also with 
the help of the military, for obvious reasons, when it comes to 
submarines and the like. When we identify a new mechanism or 
way of transporting drugs to the United States, we react very 
effectively.
    The key to success often is having the sources, not in the 
United States, but sources in other countries that alert you to 
the new mechanisms of transporting the goods into the United 
States. I believe we have been very effective over the years--
ourselves, working closely with DEA--in gathering the 
intelligence that would alert us to the new mechanisms of 
trafficking in the United States.
    Additional resources would always be helpful. Would it make 
a substantial impact on the ability? Because there's so many 
different ways that drugs are coming to the United States--
there's no one pipeline that you could cut off--it's hard to 
tell the overall impact. But, I think we do a good job at 
responding to the new, innovative ways that the traffickers are 
attempting to get the drugs across the border.
    Senator Pryor. You know, another problem we've had--and 
this has been most visible in CBP, although it apparently is in 
other agencies, as well--is that the drug cartels are actively 
trying to corrupt U.S. officials, U.S. employees, Border Patrol 
agents, et cetera. Are you seeing that phenomenon within the 
FBI?
    Mr. Mueller. Not within the FBI. We do the investigations 
in other agencies. We may have had one or two instances where--
over 4 or 5 years ago--maybe it's more than that, but certainly 
under 10--in which we've had, we believe, FBI employees acting 
improperly on behalf of those who may be affiliated with 
cartels.
    Senator Pryor. I know that one of the problems the CBP has 
had is that they've done all this new hiring----
    Mr. Mueller. Yes.
    Senator Pryor [continuing]. To try to beef up the border. 
The Congress has been pushing more hiring along the border. But 
they have not kept up with their own policies and procedures, 
in terms of doing polygraphs before people are hired, and doing 
the background checks once they're hired, et cetera. And my 
understanding is FBI has actually tried to lend a hand there 
with polygraphs. So----
    Mr. Mueller. We do.
    Senator Pryor. Yes. So, I appreciate that. And I think 
there---- again, it sort of underscores the team effort nature 
of this.
    Mr. Mueller. We have border corruption task forces that we 
participate in along the border----
    Senator Pryor. Right.
    Mr. Mueller [continuing]. Focused just on this.

                                 GANGS

    Senator Pryor. And another related issue is that the 
Mexican drug cartel has a big presence in the United States. 
And they're using a lot of gangs. Some of these are street 
gangs. Apparently, there's a concern about the prison system, 
where folks come out of the prison system and they join these 
gangs; they've been recruited, I guess you can say, in the 
prison system. Are you seeing that phenomenon? And, in your 
budget, are you trying to address that?
    Mr. Mueller. Well, I mentioned Barrio Azteca earlier, which 
is on the Texas border. In California you have the Mexican 
Mafia, Nuestra Familia in northern California, and across the 
border, you can identify those gangs that have operations or 
have hierarchy in Mexico and are running the trafficking 
through these gangs in the United States, or have relationships 
with the cartels, in order to bring the drugs in and distribute 
them.
    We had to make a decision after September 11 to move 2,000 
agents to counterterrorism. We sat down and looked at what we 
were doing. Where did we take the 2,000 agents? We took a 
majority of those agents from the drug programs, where they 
were doing enterprise cases, working with DEA and OCDETF, and 
moved them over to national security. We also took agents who 
were doing smaller white-collar criminal cases and moved them 
over to national security. That has meant that we have not had 
anywhere near the footprint we had in addressing narcotics 
cases in the wake of September 11. And, as I indicated, the 
2,000 bodies taken from the criminal side of the house have not 
been backfilled. So, in our budget, that is not one of those 
priorities that I alluded to.
    Senator Pryor. Right.
    Mr. Mueller. And you either prioritize, or you don't. You 
can't pick and choose.
    Senator Pryor. Right. Thank you.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Collins. And----
    Senator Collins. Thank you, Madam Chair.
    Senator Mikulski [continuing]. We're so glad you're--well, 
we're glad everybody's a member--but, as ranking member on the 
Homeland Security Committee, I think you really bring an 
incredible body of knowledge on this, and hope you can join us, 
also, in the classified hearing, at the conclusion of your 
questions.
    Senator Collins. Thank you. I'm delighted to be a new 
member of this subcommittee with such great leaders. During a 
recent dinner with the women of the Senate, we decided that, if 
necessary, we're going to take over the budget negotiations, 
because we're confident we could produce a budget. And I say 
that only partially in jest. I think we really could work this 
out.
    Mr. Mueller. Then I'd say I look forward to working with 
you.
    Senator Collins. Exactly.
    This is--I know that issue has been covered, and I just 
want to associate myself with the comments that have been made, 
to express my great concern on what the real-life impact is if 
Government is unable to function.
    I also want to associate myself with the comments of my 
colleagues in thanking you for your public service. I know, as 
Senator Hutchison has mentioned, that you are the first FBI 
Director to serve the full 10 years since the Congress put that 
requirement in place. That continuity of leadership has allowed 
you to accomplish a great deal and has been extremely important 
as the FBI has gone through a fundamental transition in its 
mission.
    As you are well aware from our numerous conversations, the 
Homeland Security Committee recently completed its 
investigation into the Fort Hood attack and issued a 
comprehensive report, which has a number of findings and 
recommendations that relate to FBI. I know that, last week, you 
testified before the Judiciary Committee, and were asked about 
our report, and discussed the improvements FBI has undertaken 
in response to our recommendations.

                           FORT HOOD SHOOTING

    A critical failure that our report identified was the 
failure of one of the JTTFs--the one in San Diego--to fully 
share information about communications between Major Hassan and 
a suspected terrorist with the Washington JTTF and with FBI 
headquarters and with the DOD. Have you put in place reforms 
that would prevent that kind of stovepiping from occurring 
today?
    Mr. Mueller. Well, I'm not certain I would agree with the 
characterization of a conscious stovepiping. I do believe that 
information was shared--and we can get into this in more 
detail--but, I do believe information was shared from San Diego 
to Washington. Now, the followup, in terms of taking that 
information and moving on it, is an area that we addressed, and 
we addressed it through additional training and the like.
    In terms of the information to be shared, there were areas 
that related to our ability, technologically, with our 
databases, to pull together a variety of pieces of information, 
and continue to retrieve that information and share it, that we 
had to address. We have addressed that and are indeed in the 
process of utilizing that as a basis for having the capability 
of doing federated searches across a variety of databases.
    So, in the immediate wake of Fort Hood, we looked at that 
and saw that this was a vulnerability and a weakness that we 
had to address. And we have been doing that.
    I might also add, if I could, that we are seeking 
additional software capabilities in the 2012 budget to address 
this. But those are my thoughts on that issue.
    Senator Collins. Well, some information was shared. I think 
you will agree that not all of the communications were shared. 
And the result was that the Washington JTTF did a very cursory 
review of--once it got the information from San Diego, which 
caused great consternation by San Diego.
    But, let me ask you a more fundamental question about this. 
An important conclusion of our report was that this was not--
this case, with Major Hassan, was not treated as a 
counterterrorism case, that the FBI's counterterrorism division 
at headquarters was not informed to try to resolve the 
conflicts between the two JTTFs. And the DOD was not fully 
informed, pursuant to the longstanding delimitations agreement. 
What has been done to address those issues?
    Mr. Mueller. Well, there are two things we found, in the 
wake of what happened down there that we need to address.
    We had informal discussions with DOD, on an informal, 
basically ad hoc basis, with regard to individuals in the 
military who may present a counterterrorism issue here in the 
United States. That was inadequate. We have, now, a formal 
relationship, periodic meetings in which we go over every case 
that, in any way we come up with, affects the military. And 
also, the military exchanges information with us. So we have 
addressed that problem--that gap.
    The other issue that you talked about, and that is the 
coordination by headquarters in the FBI: we have 56 field 
offices, 400 resident agencies, thousands of counterterrorism 
cases. And we have substantially built up the headquarter's--
and I won't say ``control''--coordination and support since 
September 11. And I believe it works effectively almost all the 
time. There are going to be instances where it does not get up 
to where it should be and decisions are made at a lower level 
on a particular case that should have been raised up. This, 
perhaps, was one of them.
    But, the other point that I do want to make, with regard to 
what happened in this particular case between our JTTFs--and I 
can get into this maybe a little bit deeper when we're in 
closed session--but, in certain cases, the volume of 
information that has to be reviewed may be too broad for one 
particular field office to handle. We have changed our 
processes so there are redundant reviews to assure that if 
something is not picked up in the first instance in a field 
office, it will be picked up at headquarters in a redundant 
review to address that particular issue.
    Senator Collins. Thank you. Thank you, Madam Chair.
    Senator Mikulski. And, as I said to Senator Johnson, if you 
want an additional series of meetings, the FBI will. And it's 
also worthwhile going over. And it will tie in directly, 
particularly with cybersecurity. But, we'll talk about it in 
our next stop, here.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, the Senators may submit 
additional questions for the official hearing record. And we'd 
like the FBI's response in 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the FBI for response subsequent to the 
hearing:]
               Questions Submitted by Barbara A. Mikulski
                   mortgage fraud--predatory lending
    Question. Predatory lenders continue destroying families and 
communities across the United States and undermining faith in our 
financial systems. The Federal Bureau of Investigation's (FBI) mortgage 
fraud workload has increased as more predatory lenders are exposed. 
Last year, the Congress allocated $245 million for FBI to hire new 
agents and forensic accountants dedicated to investigating mortgage 
fraud, bringing the total number working on this problem to more than 
910 agents.
    What can FBI do when it has full teams of agents, forensic 
accountants, analysts, and attorneys to work on the financial fraud 
case workload?
    Answer. The addition of any investigative analysts and forensic 
accountants would assist the agents and attorneys in investigating and 
prosecuting the roughly 3,000 pending mortgage fraud cases and 2,400 
corporate securities and commodities fraud cases.
    The average length of a complex mortgage fraud investigation ranges 
from 2 to 5 years, and with the current funded level of agents, the 
average mortgage fraud caseload is approximately nine cases per agent. 
With a full team, the FBI will be able to increase the pace at which 
cases can be investigated and prosecuted, and reduce the caseload per 
agent.
    The 3-year average impact per agent for mortgage fraud was 
$6,436,213 during the period of fiscal year 2008-fiscal year 2010. The 
3-year average impact per agent for corporate securities and 
commodities fraud was $31,541,257 during the period of fiscal year 
2008--fiscal year 2010. This calculation is based on the amount of 
restitution, recoveries, fines, and forfeitures generated from the 
mortgage fraud cases by agents assigned to investigate the cases.
    Question. There has been some speculation lately as to why FBI is 
``targeting'' smaller financial fraud cases rather than going after 
much bigger ones on Wall Street. Please explain if this is true and how 
the FBI prioritizes cases.
    Answer. FBI does not ``target'' cases involving lone offenders, 
small dollar losses, or lower-level violations. Rather, we investigate 
and pursue financial fraud in all its forms, and we are keenly 
interested in investigating cases that involve large dollar losses, 
multiple fraud victims, criminal enterprises, or behavior that poses a 
heightened risk of undermining trust in financial markets. Of course, 
the pace of large, complex financial fraud investigations--which often 
take 2 years or more to thoroughly investigate--will not match the 
quicker pace of more straightforward fraud cases. But there should be 
no doubt that we are committed to using all resources at our disposal 
to pursue large, complex financial fraud wherever we find it.
    By way of illustration, throughout the past year, FBI and its 
partners at all levels of law enforcement continued to uncover and 
assist in the prosecution of massive frauds and Ponzi schemes. At the 
end of fiscal year 2010, FBI had more than 2,300 active corporate and 
securities fraud investigations. During the same timeframe, we were 
involved in more than 3,000 ongoing mortgage fraud investigations. Here 
are a few examples of the types of cases we have been pursuing:
  --In April 2010, Thomas J. Petters was sentenced to 50 years in 
        prison for his role in operating a $3.65 billion Ponzi scheme 
        through his company, Petters Group Worldwide LLC.
  --In June, Lee Farkas, former chairman of Taylor, Bean, and Whitaker, 
        a large mortgage origination company, was charged with a $1.9 
        billion fraud that contributed to the failure of Colonial Bank, 
        one of the largest banks in the United States and the sixth-
        largest bank failure in the country.
  --In July, Paul Greenwood, a managing partner at both WG Trading and 
        Westridge Capital Management, pled guilty to his role in a $700 
        million scheme that defrauded charitable and university 
        foundations as well as pension and retirement plans.
  --In October, Jeffrey Thompson, former president of Hume Bank, pled 
        guilty to making false statements to the FDIC as part of a bank 
        fraud scheme which caused such significant losses that the 
        institution was pushed into insolvency. Thompson faces a 
        sentence of up to 30 years in Federal prison, plus a fine up to 
        $1 million and an order of restitution.
  --In February 2011, Michael McGrath, former president and owner of 
        U.S. Mortgage Corporation, formerly one of the largest private 
        residential mortgage companies in New Jersey, is scheduled to 
        be sentenced for his role in perpetrating a corporate fraud 
        scheme involving the double selling of mortgage loans to Fannie 
        Mae with losses in excess of $100 million. McGrath faces up to 
        20 years' Federal imprisonment, as well as payment of 
        restitution and forfeiture of assets.
    These are just a few examples of the thousands of financial fraud 
investigations ongoing at FBI and conducted in conjunction with the 
administration's Financial Fraud Enforcement Task Force.
    Question. Will FBI be able to add agents to conduct these 
investigations, even as it loses criminal agents to counterterrorism 
work?
    Answer. The $44.8 million in new resources that the Congress 
provided in fiscal year 2009 to investigate mortgage fraud and other 
financial crimes has allowed FBI to add 81 agents to focus on this 
criminal activity. FBI is not able to realign agents from other 
programs to work on mortgage fraud as it would risk widening 
investigatory gaps in other areas.
    Note that since fiscal year 2007, FBI has not ``lost'' criminal 
agents to counterterrorism work.
    Question. How can FBI better help State and local officials 
investigate predatory lenders?
    Answer. FBI currently works closely with its State and local law 
enforcement partners on financial fraud cases in numerous ways, 
including through regional mortgage fraud task forces and working 
groups; through the coordinated efforts of the Financial Fraud 
Enforcement Task Force, which includes many State and local enforcement 
officials; and through the National Association of Attorneys General 
and the National District Attorneys Association. FBI will continue to 
use these and other avenues to work with its State and local partners 
in the future.
                       stopping human trafficking
    Question. Human trafficking is both a United States and 
international crime as a violation of human rights, labor and public 
health standards. The State Department estimates that 800,000 
individuals are trafficked across borders each year, with an estimated 
2-4 million people trafficked within countries. At least 45,000 victims 
trafficked into the United States each year. The overwhelming majority 
are women and children--mail order brides, sex slaves, runaways, and 
child prostitutes. Organized crime cartels make $9.5 billion annually 
from human trafficking across the world.
    What role does FBI play in investigating human trafficking and 
slavery?
    Answer. FBI is the DOJ's primary investigative agency for human 
trafficking violations. As such, FBI participates in 74 human-
trafficking working groups and task forces nationwide. The working 
groups and task forces are comprised of other Federal, State, and local 
law enforcement as well as a number of nongovernmental organizations. 
Additionally, FBI is a member of the Federal Enforcement Working Group 
(FEWG), which includes representation from the Department of Justice, 
Civil Rights Division; the Department of Homeland Security (DHS), 
Homeland Security Investigations directorate; the Department of Labor 
(DOL), Wage and Hour Division; and the DOL Office of the Inspector 
General. As a member of the FEWG, FBI is participating in a pilot 
Federal Anti-Trafficking Coordination Team (ACTeam) program. The 
objectives of the ACTeams are to proactively identify and assist human 
trafficking victims; develop victim-centered, multi-disciplinary human 
trafficking investigations; and produce high-impact human trafficking 
prosecutions resulting in the conviction of traffickers, the 
dismantling of trafficking organizations, and the forfeiture of 
proceeds and instrumentalities of trafficking offenses.
    Question. What is FBI doing to help State and local law enforcement 
and victim service providers keep victims of human trafficking safe and 
hold abusers available?
    Answer. The number of agents in FBI's Human Trafficking program has 
increased fivefold since 2001, and the number of investigations has 
nearly tripled since 2004. A critical resource and component of FBI's 
approach to Human Trafficking is the support to victims provided by the 
Office for Victim Assistance (funded by the Crime Victims Fund), 
including emergency housing, crisis intervention services, clothing, 
translator services, locating job training and educational services, 
processing applications for continued presence in the United States, 
and more.
    More than two-thirds of FBI's 122 field office victim specialists 
participate in human trafficking task forces. FBI leverages its threat-
driven and intelligence-led approach to human trafficking 
investigations. Every intelligence analyst, staff operation specialist, 
and forensic accountant receives human trafficking instruction as part 
of their new employee training program.
    In August of last year, FBI published a national Human Trafficking 
Intelligence Assessment that identifies trends in human trafficking and 
areas within the United States that are vulnerable to certain forms of 
human trafficking. FBI is also focused on directing investigative and 
outreach resources to combat threats to nonimmigrant visa workers and 
other communities that are particularly vulnerable to forced labor.
    In addition, FBI has built the Innocence Lost National Database, 
which assists in the identification of victims and the prosecution of 
those responsible for the sexual exploitation and trafficking of 
juveniles. This database is accessible to Federal, State, and local law 
enforcement officers and prosecutors who investigate child 
prostitution.
    FBI is a full participant in the Anti-trafficking Coordination 
Teams, with partners in DHS, DOL, and the U.S. Attorney offices. These 
teams add to our existing relationships with Federal, State, local, 
tribal, and nongovernmental partners formed through participation in 
more than 100 task forces and working groups focused on confronting the 
human trafficking threat.
    Question. How can FBI better help State and local officials 
investigate the perpetrators of human trafficking?
    Answer. Human trafficking investigations often require a tremendous 
amount of manpower, thus FBI works collaboratively with State and local 
law enforcement partners in investigating these crimes.
    Often victims, due to fear of their traffickers, are initially 
afraid to admit they are victims of human trafficking. With the help of 
FBI's Victim Assistance Program, victims are provided a safe 
environment to speak and provide the details necessary to prove a human 
trafficking violation.
    Another important aspect of investigating the perpetrators of human 
trafficking is knowing where to find the perpetrators. A number of FBI 
field offices provide human trafficking training to State and local law 
enforcement as well as to the nongovernmental organizations. This 
training helps State and local law enforcement identify industries 
which are susceptible to human trafficking and to better understanding 
the human trafficking problem in their area of responsibility.
          state and local law enforcement--fighting terrorism
    Question. Joint Terrorism Task Forces (JTTFs) are teams of Federal, 
State, and local police and intelligence agencies working together to 
identify and respond to terrorist threats at the local level. There are 
now more than 100 task forces led by FBI, with 4,400 participants. 
These teams have been front and center in recent failed bombing 
attempts on a military recruiting station in my own home State of 
Maryland, former President Bush's home in Texas, and a holiday tree 
lighting ceremony in Oregon. Their efforts have prevented what could 
have been deadly attacks on Americans.
    How beneficial are the task forces in responding to terrorist 
threats? What unique role do they play in terrorism investigations?
    Answer. JTTFs are highly beneficial and play an essential role in 
responding to terrorist threats and protecting the United States from 
attack:
  --they enhance communication, coordination, and cooperation among the 
        Federal, State, local, and tribal agencies by sharing 
        information regarding suspected terrorist activities and/or 
        subjects on a regular basis and providing access to other 
        investigative databases to ensure timely and efficient vetting 
        of leads;
  --they provide a force multiplier in the fight against terrorism; and
  --they enhance FBI's understanding of the threat level in the United 
        States.
    Currently, FBI leads 104 JTTFs:
  --1 in each of the 56 FBI field office headquarter cities; and
  --48 in various FBI resident agencies.
    In addition to FBI, 688 State, local, and tribal agencies, and 49 
other Federal agencies have representatives assigned to the JTTFs. FBI 
is the lead Federal agency with jurisdiction to investigate terrorism 
matters, and the JTTFs are one of FBI's key mechanisms to investigate 
terrorism matters and protect the United States from terrorist attack.
    Question. Does FBI anticipate expanding task forces in the future 
if funds are available? Or is it recommended that funding go to another 
priority area? What additional resources would FBI need to expand the 
program?
    Answer. As noted in an earlier response, JTTFs are extremely 
effective in investigating terrorism matters and protecting the United 
States from terrorist attacks. JTTFs enhance communication, 
coordination, and cooperation among Federal, State, local, and tribal 
agencies, and provide a force multiplier in the fight against 
terrorism. Additional resources would help FBI and other Federal, 
State, local, and tribal agencies increase participation in the JTTFs, 
and thus assist in combating terrorism. In order to expand JTTFs, 
funding for personnel (FBI and Task Force Officers), overtime, space, 
equipment, and other items would be necessary.
    Question. With State and local law enforcement agencies reducing 
their numbers because of funding cuts, will FBI face a greater 
difficulty to fill gaps in State and local terrorism investigations? Is 
FBI set to receive or request any additional money to deal with 
additional demands from its State and local partners?
    Answer. JTTF membership has declined over the past year. This 
decline could be attributed to current Federal, State, and local 
budgetary constraints that have created manpower issues for agencies 
and caused them to pull back personnel from JTTFs. Federal, State, and 
local agency full-time and part-time JTTF participation comes at a 
great manpower staffing cost to participating agencies, and it will 
likely become increasingly difficult for agency executives to detail 
personnel to JTTFs due to budgetary constraints. FBI will continue to 
support the ability of its State and local law enforcement partners to 
participate in JTTFs, including paying for overtime of State and local 
task force officers with funding provided by the Assets Forfeiture 
Fund.
    The overall decline in Federal, State, and local JTTF participation 
will impact interagency coordination, cooperation, and information 
sharing at all levels. Defeating terrorism cannot be achieved by a 
single organization. It requires collaboration with Federal, State, 
local, and tribal partners to identify suspicious activity and address 
it.
    Given the persistent and growing threat posed by terrorists, JTTFs 
require an enhanced presence of other law enforcement and intelligence 
entities on task forces. JTTFs cover thousands of leads in response to 
calls regarding counterterrorism-related issues. These leads address 
potential threats to national security and require a significant amount 
of coordination and resources.
    FBI does not reimburse its JTTF partner agencies for task force 
officer salaries. Reimbursement is solely limited to overtime for the 
State and local agencies. To mitigate the loss of additional task force 
officers, funding could be allocated to State, local, and Federal 
partners, either directly or through DOJ grants, to support their 
continued participation. FBI has not requested any additional funding 
in the fiscal year 2012 President's budget to meet additional demands 
from its State and local partners.
                                sentinel
    Question. I have been concerned for a long time about the many 
delays and cost overruns in the development of Sentinel, FBI's new case 
management system. These important technological tools and computer 
upgrades are supposed to protect our citizens. FBI has taken recent 
steps to salvage Sentinel from multiple delays and rising costs. I want 
to know what was behind the delays and what the next steps are.
    What caused the multiple delays in Sentinel, leading up to July 
2010 when FBI issued a full stop work order, and how did FBI handle 
these problems?
    Answer. As a reminder, at the time of the stop work order, two 
phases of the Sentinel case management application had been 
successfully deployed, supporting approximately 8,000 unique users on a 
monthly basis at that time. Further, the project is still within the 
$451 million budget and is projected to remain so through the final 
development and deployment of Sentinel capabilities.
    FBI issued a partial stop-work order in early 2010 and a subsequent 
full stop-work order in July 2010 as a result of a significant number 
of deficiencies in quality, usability, and maintainability of the code 
delivered. As a result, FBI executive management made a decision to 
delay release of the pilots scheduled for early 2010, which were 
instead completed in July and August 2010.
    During the period between the partial stop-work order and the full 
stop-work order, FBI determined that the most appropriate step to 
mitigate unwarranted program costs and schedule overrun was to issue a 
full stop-work order with the contractor and have FBI assume direct 
responsibility for the development of the application.
    FBI leadership determined that an Agile development methodology 
would allow FBI to complete all functionality and provide the best 
outcome for success within the $451 million budget.
    Question. In September 2010, the Director decided to take 
management of Sentinel completion in house. What factors led FBI to 
take over completion of Sentinel?
    Answer. As a reminder, at the time of the stop-work order, two 
phases of the Sentinel case management application had been 
successfully deployed, supporting approximately 8,000 unique users on a 
monthly basis at that time. Further, the project is still within the 
$451 million budget and is projected to remain so through the final 
development and deployment of Sentinel capabilities.
    FBI issued a partial stop-work order in early 2010 and a subsequent 
full stop-work order in July 2010 as a result of a significant number 
of deficiencies in quality, usability, and maintainability of the code 
delivered. As a result, FBI executive management made a decision to 
delay release of the pilots scheduled for early 2010, which were 
instead completed in July and August 2010.
    During the period between the partial stop-work order and the full 
stop-work order, FBI determined that the most appropriate step to 
mitigate unwarranted program costs and schedule overrun was to issue a 
full stop-work order with the contractor and have FBI assume direct 
responsibility for the development of the application.
    FBI leadership determined that an Agile development methodology 
would allow FBI to complete all functionality and provide the best 
outcome for success within the $451 million budget.
    Question. Have any capabilities actually been deployed? Is anyone 
using them, and, if so, what is the user feedback?
    Answer. Sentinel was originally deployed in 2007. Additional 
capabilities have been added to Sentinel since the original deployment. 
There are currently more than 10,000 unique users monthly for Sentinel. 
In a recent survey, Sentinel users provided favorable feedback on the 
system capabilities, rating it a 4 ``agree'' on a 1-5 Likert scale, 
where 1 was ``strongly disagree'' and 5 was ``strongly agree''.
    The deployed system capabilities include:
  --Electronic communications form (FD-1057);
  --Interview form (FD-302);
  --Lead request (FD-1038);
  --Import form (FD-1036);
  --Workflow;
  --Document search; and
  --Setting leads.
    Question. What is FBI doing to address the budget and schedule 
impact?
    Answer. Sentinel should be fully deployed within the approved $451 
million budget. Bringing management of Sentinel in-house and utilizing 
the Agile development methodology have enabled the schedule to be 
shortened. FBI plans to complete deployment in 2011 and within budget.
    In October 2010, FBI began a directly managed effort to complete 
the remaining requirements for the Sentinel program. The critical 
tenets of the program, using an Agile development process, required a 
smaller integrated team. To control costs and implementation of 
Sentinel, FBI's Assistant Director, Information Technology Engineering 
Division/Chief Technology Officer has been directly leading the 
integrated team of Government employees and contractors.
    On a biweekly basis, the team presents a demonstration of completed 
and integrated functionalities to an open audience, including DOJ, key 
FBI executives, Independent Verification and Validation (IV&V) team 
members, FBI IT Governance, FBI Knowledge Office, FBI Finance Division 
(FD), FBI Corporate Policy Office, FBI Resource Planning Office, and 
FBI Records Management Division. This audience provides feedback to the 
team during each demonstration.
    Change Management.--Sprint planning meetings are held every other 
Monday following the previous Friday's delivery demonstration. During 
the Sprint planning meetings, the Sentinel Agile team plans and 
prioritizes expectations for the upcoming demonstration (in 10 working 
days). This effectively controls the scope and prioritization of the 
work to be performed.
    Contract Structure.--The remaining development and completion of 
Sentinel using the Agile methodology accelerates decisionmaking and 
improves team productivity. To support the shift of technical 
responsibility to FBI management, Lockheed Martin's responsibility was 
transitioned to a cost-plus fixed fee for the remaining development. 
Operations and Maintenance of the current production version of 
Sentinel remains a cost-plus award fee structure.
    Contractor Oversight.--Contractors are directly integrated with 
Government personnel. Government employees lead all areas of Sentinel 
development and provide immediate and continuous oversight. Contractors 
also submit monthly status reports to the Sentinel team that detail the 
most recent performance. The Sentinel team has an established 
Integrated Baseline Review and a Control Account process providing a 
certified Earned Value Management System.
    IV&V.--An IV&V contract has been in place throughout Sentinel's 
development to monitor Sentinel and Lockheed Martin's efforts and to 
ensure an unbiased evaluation of both the products and processes 
associated with the technical, managerial, financial, and/or risk 
associated with the program. The Sentinel Agile team continues to 
conduct IV&V reviews; the results are provided to the Executive 
Assistant Director of the Information and Technology Branch.
    Risk Management.--The Sentinel Agile team has continued the risk 
management process. It meets bi-weekly to re-evaluate and update the 
risk register.
    Additional Oversight.--In addition to the controls implemented by 
the FBI Sentinel team, the leadership continues to be responsive to the 
following:
  --Regular FBI executive briefings;
  --Continuous DOJ Office of the Inspector General audits;
  --Ongoing Government Accountability office audits;
  --Monthly DOJ reviews;
  --Regular DOJ investment review board reviews;
  --Office of Management and Budget TechStat process;
  --DOJ TechStat process;
  --FBI Governance monthly program health checks;
  --FBI Life-cycle management;
  --Weekly program reviews by FBI Finance Division, Office of General 
        Counsel, and Inspection Division;
  --Dedicated liaison to the FBI's Resource Planning Office, 
        Directorate of Intelligence, and Records Management Division.
    Question. When will the project be completed? How much over budget 
will it be?
    Answer. At the beginning of Sentinel Agile development, the planned 
estimate for completion was to remain within the $451 million 
allocation, which includes operations and maintenance (O&M) and the 
life-cycle development costs. As of the latest invoice cycle, Sentinel 
development and the O&M of the operational Sentinel system are within 
the $451 million approved funding. When Sentinel first went into 
operation in 2007, a 5-year O&M contract began and runs to May 2012. 
However, FBI projects that Sentinel will be fully deployed in 2011.
    Question. FBI requests $30 million in fiscal year 2012 for 
Sentinel. Is this more than the estimated development budget?
    Answer. Sentinel Agile is expected to be delivered in 2011 within 
the $451 million total Sentinel budget. This funding also provides O&M 
support through May 2012. The fiscal year 2012 budget request of $30 
million is to create a permanent base funding for O&M.
                   stopping internet child predators
    Question. The Innocent Images Initiative targets sexual predators 
on the Internet, a sexual predator's weapon of choice to target 
children. Innocent Images' workload has increased dramatically, from 
113 open cases in 1996 to 6,000 open cases in 2009--a 5,000 percent 
increase. FBI's budget request includes $69 million for the Innocent 
Images program. In 2010, the Congress increased Innocent Images by $14 
million, but the fiscal year 2012 request is only $2 million more.
    If the Innocent Images caseload is increasing so exponentially, why 
hasn't FBI requested substantial additional resources in fiscal year 
2012 to hire more agents and digital forensics experts to meet this 
need?
    Answer. The Innocent Images program is a high priority to FBI. In 
fiscal year 2011, FBI dedicated 237 agents in the field to address the 
growing problem of sexual predators using the Internet to target 
children. These 237 agents worked on 5,999 innocent images cases, or an 
average of 26 cases per agent. While the caseload per agent 
demonstrates that additional resources would be helpful, the budget 
reflects our best efforts to align limited resources to a number of our 
critical mission areas. There are unfortunately areas that cannot be 
addressed with the constrained funding available.
    Question. How is FBI addressing the growing threat of child 
predators on the Internet, given that the request provides a bare 
minimum in new resources to investigate child predators that prey on 
children online?
    Answer. FBI has several initiatives that address the growing threat 
of child predators on the Internet, which are described below.
                  online undercover operations (ucos)
    FBI has two UCOs that focus on the growing threat of child 
predators on the Internet. The first is the Innocent Images National 
Initiative (IINI) program, which operates one Group I UCO at Calverton, 
Maryland, and 43 Group II Innocent Images On-line UCO initiatives 
targeting online child exploitation offenders across the United States 
and internationally. The second is the Internet Crimes Against Children 
(ICAC) program, which has 59 ICAC Task Forces also targeting on-line 
child exploitation offenders within the United States.
    In order to facilitate a more unified relationship with the ICACs 
for this critical component for online child exploitation 
investigations, Cyber Division (CyD), IINI and ICAC have established 
joint training. IINI and ICAC are currently working together to develop 
additional undercover training for FBI Agents, Task Force Officers 
(TFOs), and ICAC personnel. In order to successfully identify, 
investigate, and prosecute IINI subjects and identify victims, agents 
and TFOs must be provided specialized and comprehensive training to 
operate on-line in a covert capacity. Development of a training program 
which addresses the needs of both FBI and the ICACs enhances an 
excellent working relationship in the field, which provides a more 
specialized and uniform training across the United States.
                      law enforcement partnerships
    Each year, IINI has seen an increase in open cases, arrests, 
indictments and prosecutions, with more of a chance to overlap on those 
investigations with other law enforcement agencies. The Attorney 
General instituted a program to address these cases across all Federal, 
State, and local jurisdictions within the United States, named Project 
Safe Childhood (PSC). This initiative requires all agencies to work 
together toward the common goal of eradicating child exploitation, 
specifically via the Internet.
    ICACs are comprised of Federal, State, and local police 
departments. Some ICACs are fully integrated with FBI Innocent Images 
Task Forces, and some ICAC Task Force members are members of FBI 
Innocent Images Task Forces. ICACs are managed by DOJ Office of 
Juvenile Justice and Delinquency Program (OJJDP).
    Safe Online Surfing (SOS) Program.--FBI-SOS is a free Internet 
safety program designed to help students recognize potential dangers 
associated with using the Internet. The program was launched during the 
2005-2006 school year and developed in cooperation with the FBI's Miami 
field division. The SOS program is administered by the Common Knowledge 
Scholarship Foundation (CKSF), which is part of the Fischler School of 
Education and Human Resources at Nova Southeastern University (NSU). In 
October 2009, FBI Cyber/Innocent Images National Initiative Unit 
(IINIU) adopted the SOS program as a national initiative.
                   iini research and development team
    The IINI has established and assigned valuable resources to a 
Research & Development (R&D) component in order to increase the stock 
of knowledge of new and emerging technologies, culture and society, and 
the use of this knowledge to devise new applications on a systemic 
basis. Internet social networking and emergent high technology have 
fundamentally changed human behavior and criminal tradecraft, 
especially in crimes against children cases. To protect minors and to 
catch and hold offenders fully accountable for their crimes, law 
enforcement agencies and prosecutors must understand how people use 
technology to interact with each other. Law enforcement must also have 
the investigative preview and forensic tools necessary to succeed in an 
ever-changing technical and social environment. The R&D component for 
the IINI has been established to provide this support to FBI 
investigators conducting on-line child exploitation investigations.
                  digital analysis and research center
    The IINI established its own digital forensic laboratory, which is 
dedicated exclusively to the examination and analysis of digital 
evidence in the most significant Internet-based online child sexual 
exploitation cases nationwide. This unit, known as the Digital Analysis 
and Research Center (DARC), provides quality technical and scientific 
investigative capabilities, detailed extraction and analysis, 
testimony, and support to the FBI's IINI program. This is accomplished 
through the acquisition, preservation, examination, processing, and 
presentation of stored digital information in computers and other 
electronic devices or media. Furthermore, DARC works closely with the 
IINI's R&D component to develop new technologies and procedures to 
assist forensic examiners and investigators in combating online child 
sexual exploitation.
                 endangered child alert program (ecap)
    ECAP was initiated on February 21, 2004, as a new and aggressive 
approach to identify unknown subjects (i.e., offenders and producers) 
involved in the sexual abuse of children and the production of child 
pornography. These individuals either photographed or filmed themselves 
molesting children and were indicted as John Doe's due to their true 
identities being unknown. The locations of these individuals are also 
unknown; however, it is firmly believed they reside in the United 
States. Of particular significance in these cases is that for the first 
time, ``John Doe'' arrest warrants are based solely on images acquired 
through undercover child exploitation investigations. The Innocent 
Images Operations Unit has focused on 19 separate John Doe and Jane Doe 
investigations. To date, the national and international exposure of 
these individuals has led to the successful identification of 12 
previously unknown child pornography subjects and the identification of 
more than 30 child abuse victims.
    ECAP has utilized national and international media exposure of 
unknown adults featured in child pornography material and displays 
their images on the ``Seeking Information'' section of the FBI's Web 
site at www.fbi.gov. If the unknown subject is not identified from the 
Web site, their image may eventually be broadcast on the television 
shows America's Most Wanted, the Oprah Winfrey program, the O'Reilly 
Factor, and a number of other media and social networking outlets such 
as AOL News, Facebook, and Twitter.
                          operation rescue me
    Operation Rescue Me is an initiative to identify child exploitation 
victims who appear in unidentified child exploitation/pornography 
series circulated on the Internet. The primary purpose of this 
operation is to coordinate investigative efforts and provide the IIOU, 
and any other FBI office, a central location to document all 
investigative action taken to identify a child or children in a series. 
The central case initiative serves to eliminate redundant efforts and 
ensure that newly assigned investigators are integrated into the 
investigation in a cohesive manner.
    Question. What is the status of the Innocent Images International 
Task Force (IIITF)? How many international officers have been trained? 
How many countries have joined?
    Answer. In 2004, FBI initiated IIITF to promote and develop a 
coordinated international law enforcement response against Internet 
child sexual exploitation. Since its inception, the IIITF has and 
continues to play an instrumental role in the successful coordination 
of complex investigations against sophisticated, multi-national 
networks engaged in online child sexual exploitation. The borderless 
and constantly evolving nature of the Internet provides great 
challenges for the international law enforcement community, the 
majority of whose tools and practices were established long before the 
Internet age.
    The IIITF has proved successful in providing a platform to overcome 
many such challenges and facilitate cooperation and coordination. The 
steadily expanding IIITF is currently comprised of 90 Task Force 
Officers (TFOs) from more than 40 different countries. Currently, TFOs 
undergo a 5-week training session in Calverton, Maryland, where they 
receive specialized technical training on a variety of relevant and 
current topics, such as legal principles, emerging trends and 
technologies, and investigative techniques.
    The principal goal of the IIITF is to develop an operational 
network of specialized Internet child sexual exploitation 
investigators. The IIITF provides a communication and cooperation 
platform to share and exchange intelligence and facilitate the 
identification and furtherance of Internet child sexual exploitation 
investigations with an international scope.
        state and local law enforcement--fighting violent crime
    Question. There are roughly 1 million gang members in 20,000 gangs 
in all 50 States and the District of Columbia. With gang membership 
rising and violent crime continuing to be a problem, local law 
enforcement needs a strong partnership with Federal Government. 
Currently, there are 163 Safe Streets Violent Gang Task Forces. These 
partnerships allow FBI agents and State and local law enforcement to 
work as teams to fight street crime. However, FBI has not had the 
resources to expand this program and requests no additional funding in 
fiscal year 2012.
    How are joint Federal-State task forces effective in helping local 
law enforcement fight violent crime?
    Answer. Once considered only an urban problem, street gangs are now 
a threat to all communities across the United States. FBI's 
partnerships with State, local, and other Federal law enforcement 
agencies in the form of Violent Gang and Violent Crime Safe Streets 
Task Forces (SSTFs) have been, and continue to be, at the forefront of 
the FBI's anti-gang efforts. Violent Gang and Violent Crime SSTFs 
provide a multi-jurisdictional task force approach, which ensures FBI 
initiates and coordinates investigative efforts with other affected 
local, State, and Federal law enforcement agencies. This concept 
ensures cooperation and communication among law enforcement agencies 
and increases productivity and prevents duplication of investigative 
and enforcement efforts in matters of concurrent jurisdiction . The 
SSTFs work to disrupt and dismantle the most violent street gangs and 
criminal enterprises through aggressive enforcement of Federal criminal 
statutes. Our ongoing partnership with State and local law enforcement 
decreases crime and increases the quality of life in the affected 
communities.
    Question. With State and local law enforcement agencies forced to 
reduce their numbers because of funding cuts, does FBI anticipate a 
greater burden placed on it to fill gaps in policing? Will FBI have the 
capabilities to help?
    Answer. As noted previously, the FBI has formed an effective 
partnership with State and local law enforcement agencies to address 
gang violence through FBI Safe Street Task Forces (SSTFs). FBI SSTFs 
target the most violent gangs and criminal enterprises negatively 
affecting our communities through criminal enterprise investigations. 
Investigations that do not have a Federal nexus or involve violations 
of Federal statutes are conducted by partnering State and local law 
enforcement agencies. As budget problems continue to affect State and 
local law enforcement agencies across the Nation, the demand for FBI 
SSTF resources has increased. A reduction in State and local resources 
may result in gangs expanding their drug markets and becoming more 
violent, which may require the FBI to open more gang investigations.
    FBI will continue to partner with State and local law enforcement 
agencies through Violent Gang and Violent Crime Safe Streets Task 
Forces (SSTFs), which ensures coordination in investigative efforts. 
FBI will support State and local participation where it can, including 
paying for overtime of State and local task force officers with the 
limited funding made available through the Assets Forfeiture Fund.
    Question. Why was the only increase in this area $9 million to 
combat and investigate violent crimes in Indian country?
    Answer. FBI is one of two primary Federal agencies mandated to 
investigate felony crimes in Indian country. FBI's responsibility in 
Indian country is significant and the volume of investigations 
continues to rise. Addressing crime in Indian country is also among 
DOJ's priorities. Many tribal police departments do not currently have 
the necessary certification, technology, training, expertise, 
deputation, or mechanism to refer cases to the United States Attorney's 
Office for prosecution.
    Currently, there are 565 federally recognized Indian tribes in the 
United States, and FBI has investigative responsibility for 
approximately 200 Indian Reservations. Under the Major Crimes Act, 
General Crimes Act, Indian Gaming Regulatory Act, and traditional 
Federal investigations within Indian country, FBI must continually 
prioritize violations due to the overwhelming amount of violations 
which occur within Indian country. Due to the immediate response 
required to investigate death investigations, child sexual and physical 
assault, violent felony assault, many other crimes go under-addressed. 
Twenty-five percent of all violent crimes prosecuted by United States 
Attorneys nationally occur on Indian reservations.
    The fiscal year 2012 request to the Congress includes 40 positions 
(24 agents, 16 support) and $9 million ($449,000 nonpersonnel) to 
bolster existing Safe Trails Task Forces and to provide additional 
investigative resources to address the significant violent crime threat 
in Indian country. This enhancement request represents a 33 percent 
growth in positions (22 percent growth in agents and 40 percent growth 
in nonpersonnel resources). While the $9 million will not enable FBI to 
investigate all violent crime cases in Indian country, FBI believes 
this enhancement will increase the number of priority investigations in 
Indian country and also demonstrates reasonable growth. Further, these 
additional resources will support the Attorney General's Department-
wide initiative on public safety in tribal communities.
                       southwest border violence
    Question. I continue to be concerned that DOJ lacks sufficient 
resources to combat violence related to drug and gun trafficking on the 
Southwest Border. These violent crimes are caused by large, 
sophisticated, and vicious criminal organizations--not by isolated, 
individual drug traffickers. The Justice Department's 2012 request 
includes $2 billion to support investigations and prosecutions relating 
to border violence.
    Along the Southwest Border, DEA goes after drug smugglers and ATF 
goes after illegal guns. What role does FBI play in the Justice 
Department's enforcement of the Southwest Border?
    FBI continues to actively participate in DOJ's fight against the 
criminal threats that exist along the Southwest Border. FBI continues 
to maintain a robust contingent of squads in Southwest Border field 
offices that address drugs, gangs, violent crime, public corruption, 
money laundering, and human trafficking. As the violence has increased 
in Mexico, and the threat to the United States posed by the criminal 
enterprises operating along the Southwest Border has expanded and 
crossed FBI program lines, the FBI has taken steps to more adeptly and 
comprehensively address that threat.
    Toward that end, FBI has established nine cross-programmatic hybrid 
squads in offices impacted by the criminal activity occurring along the 
Southwest Border. FBI has also deployed seven border liaison officers 
to Southwest Border field offices to coordinate with and offer training 
to Mexican law enforcement officers. In addition, FBI has partnered 
with Federal, State, and local law enforcement partners, as well as the 
U.S. intelligence community, to share intelligence and coordinate 
investigations and investigative resources. The FBI also has 17 agents 
permanently detailed to Mexico as part of its Legat and Resolution Six 
programs. The intelligence shared between FBI field offices and the 
Legat, and vice versa, helps to drive Southwest Border-related 
investigations. These various components, coordinated by FBI 
headquarters (FBIHQ), provide DOJ with a cross-programmatic, 
comprehensive strategy to address the complex threat posed by criminal 
enterprises operating along the Southwest Border.
    Question. How concerned should communities along the border--and 
throughout the United States as a whole--be about cartel-related 
violence? If FBI is witnessing a spillover in violence across the 
border, how would it categorize this spillover?
    Answer. Other than isolated incidents, ``cross-over'' cartel 
violence from Mexico into the United States is minimal. The reason for 
this is twofold. First, the United States has not witnessed the same 
turf battles over supply and distribution routes that are occurring 
across the border. In fact, local crime reports submitted by DEA 
offices located along the Southwest Border show most categories of 
crime decreasing from 2009 to 2010.
    Second, the cartels already enjoy enormous influence in the U.S. 
drug trade and control the vast majority of wholesale markets, as well 
as many retail markets, for drugs in the United States. To engage in 
violence on the U.S. side of the border would be detrimental to the 
cartels' business because it would invite additional scrutiny at the 
border and increased law enforcement attention within the United 
States. However, the U.S. Government and communities along the border 
should remain vigilant against the threat of violent crime.
    We do believe there is a cartel presence in the United States and 
we are vigilant about guarding against the possibility of that presence 
becoming more violent in the United States. We also recognize the 
ongoing safety concerns in those communities along the United States-
Mexican border where rival cartels are vying for control of the drug 
and human smuggling routes into the United States. Although there 
currently appears to be a stable situation in the United States between 
rival cartels operating in close proximity in U.S. cities, we are 
closely monitoring the situation for any increases in violence or other 
illegal activities. For these reasons, we have dedicated unprecedented 
resources to the border and to Mexico--significantly increasing the 
number of agents and prosecutors working on Mexican cartel cases. No 
matter what the statistics today, the fact remains that we must remain 
vigilant to the impact of the violence in Mexico on the United States.
    The FBI is not witnessing a spillover in violence across the 
border, but continues to monitor this situation.
    Question. How is FBI working with the Mexican Government to 
dismantle violent drug cartels?
    Answer. The FBI staffs Resolution Six (R-6) operations in Mexico 
and Columbia. R-6 was created to enhance inter-agency coordination of 
drug and gang investigations conducted in Mexico and Columbia. 
Priorities of R-6 personnel are to develop confidential human sources, 
support domestic cases for United States prosecutions, cultivate 
liaison contacts within Mexico, and support bilateral criminal 
enterprise investigation/initiatives. R-6 personnel are co-located with 
DEA and are responsible for coordinating drug and gang investigations 
with the DEA Country Office. FBI R-6 staffs positions in the following 
Mexican cities:
  --Mexico City;
  --Juarez;
  --Tijuana;
  --Monterrey;
  --Hermosillo; and
  --Guadalajara.
    R-6 Mexico uses vetted teams of Mexican law enforcement officers to 
effect the collection of evidence and arrest targets in Mexico. R-6 
works with SEMAR (Marines), SEDENA (Army), SSP (Federal Police), and 
SIEDO (Organized Crime Unit) as well.
                          render safe mission
    Question. FBI is now responsible for the Render Safe mission, which 
involves dismantling a radiological device on U.S. soil. The 2012 
budget request includes $89 million for FBI's ``Render Safe''. This 
provides for a multi-year purchase of two new specially configured 
aircraft to carry out the Render Safe mission. The FBI currently uses 
one leased plane to carry out its mission, and that lease will end in 
fiscal year 2013.
    Why does FBI need two new planes when it currently conducts its 
mission with one?
    Answer. The Render Safe mission requires a dedicated primary 
aircraft with a secure and redundant communication system, and a 
similar backup aircraft to cover planned downtime and unexpected 
mechanical failure. The current lease does not provide a dedicated back 
up plane with required communications gear. The fiscal year 2011 spend 
plan currently awaiting congressional approval includes $35.8 million 
for the acquisition of two planes to replace the current lease and 
maintain the Render Safe capability. This funding is made up of Expired 
User Fee collections ($17 million) and prior year recoveries ($18.8 
million).
    Question. What is the cost of the current lease and how often has 
the current plane been used?
    Answer. The annual lease cost is $14.5 million. The plane is only 
used for Render Safe activities--over the past year the plane has been 
used for a number of deployment exercises.
    Question. What are the final overall costs for these new planes, 
including the special equipment and dedicated personnel?
    Answer. The overall costs for acquisition and outfitting is 
approximately $74 million over 2 years. The personnel costs for the 
Render Safe mission total approximately $4 million annually.
    Question. Why is it important that FBI purchase these planes rather 
than renew the current lease?
    Answer. Not having dedicated aircraft with redundant communication 
capabilities jeopardizes the mission success and increases the risk 
that the Render Safe team will not be able to deploy in a timely manner 
or properly communicate a highly technical and coordinated solution 
prior to landing at the identified location.
    Further, there are Office of management and Budget (OMB) regulatory 
limits that prohibit leasing for more than 90 percent of the fair 
market value of an asset, and we are approaching this regulatory limit.
    Question. How would FBI carry out your Render Safe mission without 
these aircraft?
    Answer. Without these aircraft, FBI would have to continue to enter 
into a series of short-term aircraft leases.
    Not having dedicated aircraft with redundant communication 
capabilities jeopardizes the mission success and increases the risk 
that the Render Safe team will not be able to deploy in a timely manner 
or properly communicate a highly technical and coordinated solution 
prior to landing at the identified location. Further, there are OMB 
regulatory limits that prohibit leasing for more than 90 percent of the 
fair market value of an asset, and we are approaching this regulatory 
limit.
                      misconduct of fbi employees
    Question. In January 2011, I was deeply disappointed to hear a CNN 
report detailing serious misconduct by FBI employees on and off duty. 
Incidents involved employees drinking or sleeping on duty, improper use 
of Government databases, watching pornography in the office, and using 
a sex tape for blackmail. These sensitive, internal reports were leaked 
to CNN. I consider FBI's response to this story has been tepid, at 
best.
    What is FBI doing to make sure its employees are held to the 
highest standards?
    Answer. FBI is committed to the highest standards of professional 
conduct. Our ability to accomplish the critically important national 
security and law enforcement work assigned to FBI makes it absolutely 
imperative that we have the respect and trust of the American public we 
serve. For that reason, FBI has a strict code of conduct and demands 
ethical behavior and professional excellence from all of our employees. 
When an FBI employee engages in misconduct, FBI's Office of 
Professional Responsibility (OPR) imposes an appropriate disciplinary 
sanction, from a letter of censure to a period of suspension or, in the 
worst cases, termination. The FBI OPR, the Office of the General 
Counsel, and the Office of Integrity and Compliance (OIC) also provide 
regular training to all employees--including all new agents, IAs, 
Legats, and professional staff--to ensure they know the laws, policies, 
procedures and rules under which we operate.
    Question. What steps has FBI taken to punish these types of 
employee misconduct?
    Answer. As noted in the CNN report, when the FBI OPR determines 
that an employee has engaged in misconduct, it imposes an appropriate 
disciplinary sanction, from a letter of censure to a period of 
suspension or, in the worst cases, termination.
    Question. Does FBI have safeguards in place to ensure that--once 
these types of incidents happen--they won't happen again?
    Answer. Yes. Executive Management receives weekly and monthly 
reports from the Assistant Director of OPR discussing the most recently 
decided cases, including what actions have been taken in the individual 
cases, as well as what actions have been taken at an institutional 
level to avoid recurrences. Moreover, OPR, the Office of the General 
Counsel, OIC and others provide regular training to ensure our 
employees understand the code of conduct under which they operate, as 
well as the laws, policies, procedures and rules with which they must 
comply. Finally, OPR publishes quarterly all employee emails to educate 
the workforce on acceptable standards of conduct.
                              fbi academy
    Question. The FBI Academy in Quantico, Virginia, is operating at 
full capacity. Of the Academy's three dorms, two date back to 1972, one 
dates back to 1988 and none are not up to industry standards. The 2011 
request had $74 million to expand the FBI Academy's training 
facilities, build a new dorm and renovate existing dorms, but this was 
not included in the fiscal year 2011 continuing resolution. The 2012 
request includes only $2 million for Academy improvements.
    What are the specific infrastructure challenges at the FBI Academy? 
What infrastructure setbacks will FBI face under the funding level 
provided for FBI construction account in the fiscal year 2011 
continuing resolution?
    Answer. The primary challenges are the age and capacity of the 
infrastructure support systems, such as electrical, heating ventilation 
and air conditioning (HVAC), sewer, and water. Some of the oldest 
infrastructure components (firing ranges) were installed in the 1950s. 
The main ``academy'' complex was constructed in 1972 and its 
infrastructure has gone 38 years without any appreciable upgrades or 
expansion. The academy's core infrastructure was originally designed to 
support approximately 500,000 square feet of space, but FBI's Quantico 
complex now consists of more than 2.1 million square feet. Due to the 
age of the facilities, scheduled and unplanned repairs regularly 
eliminate 8 percent of bed and classroom space.
    The second infrastructure challenge at the FBI academy has to do 
with the classroom and dormitory capacity of the facility given 
increasing demands on the organization. With the extensive growth of 
FBI's mission and workforce since 9/11, the Academy has been forced to 
use temporary classroom structures at Quantico or to lease private 
sector space, with students being housed in local area hotels. These 
stop-gap arrangements are an inefficient use of student time on campus, 
and negatively impact the quality of education and training that FBI 
students receive, while consuming significant annual resources that 
would be better directed to maintaining and expanding Academy 
facilities.
    FBI will be unable to make significant repairs or improvements to 
the original 1972 academy complex if limited to the funding level 
provided for the FBI construction account in fiscal year 2011. Key 
infrastructure systems will continue to be at risk of failure due to 
the age of their components and the Academy's classroom and dormitory 
demands will continue to be met through offsite leases and local area 
hotels for the foreseeable future.
    Question. Can FBI really make substantive improvements to the 
Academy with the $2 million requested in 2012? On what will that $2 
million be spent?
    Answer. FBI has identified more than $250 million in repair 
projects and infrastructure improvements needed to bring the Academy 
facilities up to code and industry standards. Based on the condition of 
the existing buildings, the current base funding level of $2 million is 
insufficient for making substantive improvements to them; however, it 
will assist in funding day-to-day activities.
    Question. How will the FBI's training requirements for the Academy 
continue to expand?
    Answer. In addition to the increased number of students requiring 
specialized training at the academy, the length of the programs for new 
agents and intelligence analysts (IAs) has also been extended. Existing 
curriculums were restructured to focus on areas such as Foreign 
Counterintelligence, Cyber and Counterterrorism, among others. 
Additional courses devoted to legal requirements, analytical, and 
technological tools and tradecraft have also been added. Joint training 
between new agents and IAs has also been expanded. This has 
significantly increased the total training weeks per year--by more than 
90 percent since 1995--creating scheduling conflicts amongst the 
competing student groups at the Academy. There are also new 
requirements for specialized training; for example, with increased 
emphasis on Human Sources, additional interview rooms are required for 
practical exercises.
    From 2005 to 2008, there has been a 200 percent increase in the 
number of FBI regional training events (19,851 to 39,894). FBI would be 
better served by hosting more of these regional training events at the 
FBI academy campus given that courses require access to FBI classified 
networks and space, which are generally unavailable in non-FBI 
facilities.
    Question. What are the top three improvements FBI leadership wants 
to see at the Academy?
    Answer. Complete renovation, including interior and infrastructure 
upgrades for FBI academy dormitories, and upgrading critical life, 
health, and safety infrastructure to meet current industry standards 
and codes.
    Complete renovation and interior infrastructure upgrades for the 
FBI academy dining facilities, to include an expansion that provides 
adequate space for the current level of students trained on campus.
    Complete renovation and interior infrastructure upgrades for all 
original Academy classroom buildings, to include upgrading critical 
life, health, and safety infrastructure and modernizing classroom 
spaces to better utilize current technology and instruction practices 
and expand capacity.
                    national security letters (nsls)
    Question. NSLs are useful counterterrorism tools that allow the FBI 
to conduct searches without getting court orders, and let agents 
analyze telephone, computer and bank records without warrants. The USA 
PATRIOT Act made NSLs easier to obtain, but also requires the inspector 
general to monitor the use of NSLs and report back to the Congress. The 
inspector general released two reports on NSLs that estimated more than 
6,000 NSL violations from 2004-2006. That's 8 percent of all NSLs 
issued. Violations include 11 ``blanket NSLs'' without proper approval 
in 2006, and unauthorized collection of more than 4,000 billing records 
and phone numbers.
    What is FBI doing to improve NSL training for its employees? Is 
NSL-specific training mandatory for all employees involved with NSLs?
    Answer. NSL training is mandatory for all FBI employees involved in 
NSLs. Following the March 2007 Office of Inspector General Report 
entitled, ``A Review of the Federal Bureau of Investigation's Use of 
National Security Letters'', FBI updated its NSL training module. The 
new NSL training module incorporates the essentials of creating and 
issuing NSLs, reviewing return information, and using the information 
for investigations. Also, the new training modules are now interactive 
and contain two new exams that employees must pass (with at least an 80 
percent score) to complete the training. The training modules and 
examination questions reflect the topics of recent interest concerning 
NSLs and were designed to help ensure compliance with the NSL statutes, 
Attorney General Guidelines, and the Domestic Investigations and 
Operations Guide. For example, the modules now include training on the 
new Attorney General Procedures on NSLs, the rules surrounding the use 
of a nondisclosure provision in an NSL, and the need to justify the 
nondisclosure provision in an NSL, including when and under what 
circumstances a nondisclosure provision may be included in an NSL.
    Yes, NSL-specific training is mandatory for all employees involved 
with NSLs.
    Question. The Commerce, Justice, Science, and Related Agencies 
Subcommittee recognized a problem with NSL management and provided $10 
million in fiscal year 2010 to establish the Office of Integrity and 
Compliance for oversight of NSLs. Does that Office need more staff to 
carry out its oversight role?
    Answer. Funding for the Office of Integrity and Compliance was 
appropriated through the fiscal year 2007-2008 Global War on Terror 
(GWOT) supplemental, and since its establishment FBI has continued to 
increase the responsibilities of the office. As these responsibilities 
increase, the need for funding will also increase.
    Question. Does FBI have the right computer systems and other 
technical support to improve the way it issues and tracks NSLs?
    Answer. Yes. In January 2008, FBI deployed the NSL subsystem in the 
FISA Management System to address reporting and other issues in the NSL 
process. The subsystem prompts the drafter of an NSL to enter 
information about the subject, the predication for the NSL, the type of 
NSL being requested, the recipients of the NSL, and the target of the 
NSL. After the employee creates an NSL and the accompanying memorandum 
(called an Electronic Communication [EC]), the subsystem routes both 
documents for legal review by FBI attorneys, and to FBI officials 
including the field office Special Agent in Charge (SAC) or designated 
FBIHQ official, who must review and approve both documents before the 
NSL can be issued. After all required approvals have been obtained, the 
subsystem generates the NSL and EC for signature by the SAC or a 
designated FBIHQ approving official. The subsystem thereafter 
automatically uploads the NSL and EC into the FBI's Automated Case 
System. This subsystem collects the information needed for tracking 
NSLs.
                          terrorist watchlist
    Question. The Terrorist Watchlist, maintained by FBI, is the 
intelligence community's main list of terrorist suspects. More than 1.1 
million known or suspected ``terrorist identities'' are on the list, 
and 20,000 names are added each month. A May 2009 inspector general 
report found that the terrorist watchlist had unacceptable errors, 
noting that FBI delayed reporting names to the watchlist by up to 4 
months. FBI also failed to remove names once it determined that they do 
not pose a threat, while other information was simply inaccurate or 
outdated.
    What steps has FBI taken to meet the inspector general's concerns?
    Answer. In its May 2009 report, OIG made 16 recommendations to the 
FBI to improve its watchlisting processes. OIG has closed 11 of those 
recommendations based on the extensive changes and improvements FBI has 
made to virtually every aspect of this process including:
  --policies;
  --training;
  --realignment of FBIHQ personnel to better meet the needs of the 
        watchlisting program's objectives; and
  --the establishment of metrics to ensure that FBI complies with its 
        revised policies.
    The remaining five recommendations have been resolved based on 
FBI's commitment to fulfilling the required actions. FBI is actively 
working to complete the necessary steps to ensure closure of the 
remaining recommendations.
    Question. What is FBI doing to cut the time it takes to add someone 
to the watchlist?
    Answer. On December 7, 2009, FBI issued a comprehensive 
watchlisting policy. Each field office's managers, Watchlist 
Coordinator, and Alternate Watchlist Coordinator were emailed an 
electronic version of the document. The timeline for watchlisting is 
defined in the policy as 10 business days for all submissions which is 
measured from the date the case is opened in FBI's automated case 
management system until the date the nomination form (FD-930) is 
received by email at FBIHQ. The timeline for FBIHQ is 5 business days 
for nominations and 10 business days for modification and removals. 
This is measured from the date the email containing a valid nomination 
is received via email at FBIHQ, until the date FBIHQ emails the 
completed nomination to the National Counterterrorism Center. In 
addition, the FBIHQ unit responsible for this process has established a 
``metrics team'' to review and track the timeliness of submissions by 
the field offices. Metrics reports are prepared and disseminated to all 
field office managers for appropriate actions.
    Question. How is FBI improving training for its staff to increase 
accuracy in adding names to the list and removing names from the list?
    Answer. The Terrorist Screening Center (TSC) has developed and 
implemented a standardized internal Nominations and Data Integrity Unit 
(NDIU) analyst training program which includes classroom instruction 
for new NDIU analysts and an on-the-job training (OJT) program. The OJT 
program includes a week of practical exercises focusing on complex 
processes and analytical nuances of nominations to and removals from 
the various subsets of the Terrorist Screening Database (TSDB). The 
classroom instruction is comprised of the fundamental knowledge NDIU 
analysts need to process nominations to the TSDB in accordance with the 
criteria set forth by the July 2010 Watchlisting Guidance and exercises 
which expose analysts to practical application of the knowledge. The 
OJT program pairs a new NDIU analyst with a senior NDIU analyst, who 
will mentor the new analyst through the processing of nominations 
accurately and systematically. The OJT program ensures the new analyst 
firmly grasps the watchlisting criteria and the full utility of each 
internal and external system used to process nominations to and 
removals from the TSDB. Additionally, new analysts are given a week of 
practical exercises which further develop their ability to apply 
watchlisting criteria, use internal and external systems, and recognize 
the complex nuances and indicators of nominations to and removals from 
the TSDB.
    Additionally, the TSC has been tasked with reviewing every identity 
record in the TSDB on a regular basis. This constant review ensures 
that each TSDB identity record is regularly reviewed in order to 
maintain a thorough, accurate and current TSDB. Each identity record is 
evaluated on minimum substantive derogatory criteria, minimum 
biographic information criteria and biometric criteria. This record-by-
record review project is a continuous process that ensures that every 
identity record in the TSDB has been reviewed and updated as needed.
    Question. What are the major obstacles in shortening the time it 
takes to put someone on the no-fly list?
    Answer. Once TSC receives a nomination to watchlist an individual, 
the nomination will generally be adjudicated and processed within 24 
hours. Additionally, there is an expedited nomination process available 
to the watchlisting community which allows for the immediate 
watchlisting of a suspected terrorist in exigent circumstances. If TSC 
receives an expedited nomination, that nomination will be added to the 
Terrorist Watchlist as soon as possible. For example, on May 3, 2010, 
FBI requested that Faisal Shahzad, the suspected Times Square bomber, 
be expedited to the No Fly List. In less than 30 minutes Shahzad was 
listed as a No Fly in the TSDB and less than 1 hour later all relevant 
U.S. Government watchlisting and screening agencies were informed of 
his updated watchlisting status. This effort eventually led to his 
identification and apprehension later that evening as he attempted to 
board an international flight.
    Additionally, in an effort to improve the accuracy of information 
provided to the screening community and decrease the time required to 
watchlist an individual, TSC has worked with our U.S. Government 
partners to institute information technology (IT) enhancements that 
significantly reduced the time required to transfer terrorist watchlist 
information. NCTC and TSC worked together to implement changes to their 
infrastructure and software that allows new nominations to be passed 
from NCTC to TSC within 2 minutes so that it is immediately available 
for processing instead of having to wait until the next working day. 
TSC instituted a similar enhancement with DHS and Department of State 
that provides updated terrorist information to CBP's TECS and 
Department of State's CLASS systems within 2 minutes instead of the 
next working day. DHS intends to extend the rapid updating to their 
other screening systems through the use of their Watchlist Service. 
These enhancements have greatly improved the timeliness of new and 
updated terrorist information to ensure front-line screening agencies 
have the most current and accurate information available.
    Question. Has FBI given its managers in field offices more 
responsibility to review nominations before they are sent to FBIHQ?
    Answer. The opening of a case does require managerial approval and 
all managers are aware that when they approve a counterterrorism case 
to be opened, the subject(s) of that case will be submitted for 
watchlisting.
    Question. Has FBI been working with the Director for National 
Intelligence to make sure this problem is fixed across all intelligence 
agencies?
    Answer. Yes. In an effort to ensure all U.S. intelligence agencies 
are nominating terrorists to the TSDB consistently and efficiently, 
Watchlisting Guidance was developed by an interagency working group 
that included representation from the Department of Justice, DHS, 
Central Intelligence Agency, National Security Agency, Department of 
Defense, Department of State, Department of the Treasury, and the 
Office of the Director of National Intelligence. The Watchlisting 
Guidance provides nominating agencies clear and articulable guidance on 
the standards and procedures to be followed when nominating persons to 
the Terrorist Watchlist.
    Furthermore, in collaboration with NCTC and the intelligence 
community, TSC has assisted in the development of a Terrorist 
Watchlisting course for the intelligence community to be used as a 
single source of instruction for watchlisting matters. The training 
focuses on an explanation of the overall watchlisting process; 
identifies the roles of the each intelligence community member; 
describes the various intelligence community screening systems 
supported by the TSC's TSDB; explains the minimum watchlisting 
criteria; and articulates the intelligence benefits of positive 
watchlisting encounters.
    Question. Kidnapping for ransom is a common occurrence in Mexico. 
Over the past 10 years, kidnappings of and violence against United 
States citizens in Mexico has increased.
    Often, the kidnapping of United States citizens in Mexico involves 
ransom requests made to family members in the United States.
    I understand that FBI is frequently called upon to assist Mexican 
law enforcement authorities in the investigation of violent acts 
against and kidnappings of United States citizens in Mexico.
    Would you support the development by FBI of a vetted unit with 
trusted Mexican counterparts who have the expertise to conduct 
investigations of the kidnappings of United States citizens?
    Answer. FBI has been working with the Government of Mexico to 
establish specialized Kidnapping Investigation Units (KIUs) in 9 of the 
32 Mexican states. The FBI has provided training in the United States 
as well as equipment to each unit. As kidnapping is a state crime under 
Mexico law, each of these units is operated by its respective state. 
FBI legal attaches work with these units in the kidnapping 
investigations of United States citizens. Although it would help 
improve investigations these units are not ``SIUs'' and are not fully 
vetted as an SIU would be since the Government of Mexico is currently 
doing the vetting and would have to agree to letting FBI conduct it 
instead. In addition, these units do not exclusively investigate 
kidnappings of U.S. citizens; rather they investigate all kidnappings 
in their respective states. Since kidnappings of United States citizens 
occur across Mexico, FBI must rely on Mexican state and federal 
officials to conduct the investigations according to their laws.
    FBI will also be working with the Federal Police and Federal 
Ministerial Police to develop their kidnapping investigative 
capabilities and structure.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
              lack of support for southwest border efforts
    Question. Department of Justice (DOJ) components are often 
overlooked by the administration when crafting Southwest Border budgets 
and legislation.
    Director Mueller, I am concerned that only $130 million of the 
Federal Bureau of Investigation's (FBI) $8.1 billion total request is 
dedicated to Southwest Border activities. I understand the 
administration rejected your request for more resources in last year's 
Southwest Border supplemental. I also understand that FBI was directed 
to request no new enhancements in the fiscal year 2012 request--yet the 
DOJ was burdened with more than $1 billion of unrequested programs or 
new enhancements.
    New or Unrequested DOJ Programs.--COPS Hiring for $600 million; 
Medical Malpractice Grants for $250 million; Violence Against Law 
Enforcement Officers (VALOR); Ensuring Fairness and Justice, Domestic 
Radicalization; Gang and Youth Violence Prevention Program; Byrne 
Criminal Justice Innovation; Race to the Top; and Problem-Solving 
Justice, Flexible Indian Tribal Grant Program).
    Could you discuss the resources originally requested by for the 
Southwest Border supplemental that were denied by the administration?
    Answer. The information requested is pre-decisional. However, the 
resources appropriated in the fiscal year 2010 border security 
supplemental have been crucial in allowing FBI to expand its presence 
along the Southwest Border and to expand investigative capabilities.
    Question. Last, please elaborate on any new enhancements or 
increases that you might have preferred to be included in this fiscal 
year 2012 request.
    Answer. Regarding the Southwest Border, the most critical element 
in fiscal year 2012 is sustainment of the 78 positions (44 agents) 
received in the fiscal year 2010 border security supplemental, which 
was requested in the fiscal year 2012 President's budget.
 immigration and customs enforcement (ice) agent shooting--process and 
                               resources
    Question. This past February 15, United States ICE agent Jaime 
Zapata was murdered during an attack in Northern Mexico. FBI was 
designated by the Attorney General as the lead U.S. law enforcement 
component of a multi-agency task force charged with conducting the 
investigation into this attack.
    What can you tell us about the investigative efforts of this task 
force since this tragic incident in Mexico?
    Answer. Upon notification of the attack against the ICE agents, FBI 
immediately organized a multi-agency task force located in Washington, 
DC with a multi-U.S. Federal agency Command Post (CP) at the United 
States Embassy in Mexico. The task force and CP communicate daily 
regarding all facets of the investigation. Additionally, numerous FBI 
field offices have organized multi-agency efforts to assist in the 
investigation (San Antonio, Miami, Dallas, Houston, Phoenix, and Las 
Vegas to name a few). Through their Mexican liaison contacts, CP 
members have gathered significant information and evidence regarding 
the perpetrators and accomplices of the ICE attack. Two of the alleged 
perpetrators have been transported to the United States; those two and 
two others (a total of four) have been indicted on multiple charges. 
The United States Government has presented the Government of Mexico 
with the necessary documentation to transport two other alleged 
perpetrators, including the leader of 1 of the 2 teams that attacked 
agents Zapata and Avila. As of now, 5 of the 8 individuals identified 
as perpetrators are in custody, either in Mexico or the United States.
    Question. Are Mexican law enforcement authorities cooperating and/
or assisting in this investigation?
    Answer. Mexican law enforcement officials are conducting a parallel 
investigation into this incident. The Mexican Government and its 
agencies have an ``open door'' for all United States requests for 
access to evidence, interviews, and support to our Embassy personnel in 
conducting this investigation. Members of the Embassy staff meet 
regularly with Mexican counterparts to ensure necessary information is 
shared.
    Question. Are discussions taking place to have the perpetrators 
extradited to the United States for prosecution of this crime?
    Answer. Yes, such discussions are taking place. DOJ's prosecution 
team, consisting of two prosecutors from the U.S. Attorney's office in 
the District of Columbia and two prosecutors from DOJ Criminal 
Division, has been working virtually around the clock both here in 
Washington and on the ground in Mexico since the tragic murder of Agent 
Zapata. United States prosecutors are in close contact with the Mexican 
office of the Attorney General (PGR) to discuss progress in the case 
and DOJ officials, at the highest levels, have reached out to the 
Mexican Attorney General and other PGR officials to discuss the need to 
have the perpetrators extradited to the United States for prosecution. 
Our goal is to bring all of those involved in the murder of Agent 
Zapata to justice in the United States.
    Question. Could you talk about the process that took place to 
investigate the attack and what agencies were involved?
    Answer. Upon notification of the attack against the ICE agents, FBI 
immediately organized a multi-agency task force located in Washington, 
DC with a multi-U.S. Federal agency Command Post (CP) at the United 
States Embassy in Mexico. At least 77 persons from 10 different U.S. 
Federal agencies were represented in the working group. FBI Legat, ATF 
Attache, ICE Attache, and the Regional Security Officer (RSO), traveled 
from Mexico City to the area of the attack with a small team of their 
agents to coordinate investigative efforts with the Mexican Federal 
Police and the Mexican Attorney General's Office, the Task Force and CP 
communicate daily regarding all facets of the investigation. 
Additionally, numerous FBI field offices have organized multi-agency 
efforts to assist in the investigation (Dallas, Houston, Las Vegas, 
Miami, Phoenix, and San Antonio, to name a few). Through their Mexican 
liaison contacts, CP members have gathered significant information and 
evidence regarding the perpetrators and accomplices of the ICE attack. 
Two of the alleged perpetrators have been transported to the United 
States; those two and two others (a total of four) have been indicted 
on multiple charges. The United States Government has presented the 
Government of Mexico with the necessary documentation to transport two 
other alleged perpetrators, including the leader of 1 of the 2 teams 
that attacked agents Zapata and Avila. As of now, 5 of the 8 
individuals identified as perpetrators are in custody, either in Mexico 
or the United States.
    Question. Last, can you tell us about the FBI legal attache (LEGAT) 
program and how the office in Mexico City has played a role in this 
investigation?
    Answer. The LEGAT program is the forward element of the FBI's 
international law enforcement effort, and often provides the first 
response to crimes against the United States that have an international 
nexus. The LEGAT program provides for a prompt and continuous exchange 
of information with foreign law enforcement and supports FBI's efforts 
to meet its investigative responsibilities. The LEGAT office in Mexico 
City has played a critical role in this investigation, coordinating 
investigative efforts and ensuring that authorities in the United 
States and Mexico have all of the information required to pursue 
justice in this matter. The LEGAT office has been working directly with 
U.S. Embassy officials, including the Ambassador (and Charge 
d'affaires) and Deputy Chief of Mission (DCM) to provide the 
information necessary for discussion of the case at the highest levels 
of both governments.
                      9/11 trial costs to the fbi
    Question. On Monday, Attorney General Holder announced that the 9/
11 conspirators held at the Guantanamo Bay detention facility would be 
tried by military commissions, retreating from President Obama's 
previous position of pursuing civilian trials for these terrorists. 
Holding the trials of the 9/11 conspirators in New York City would have 
not only posed a serious public safety risk, but it also would be a 
monumental strain on already scarce law enforcement resources. The 
Department of Justice and the city of New York conservatively estimated 
it would cost taxpayers approximately $300 million.
    Would having these terrorist trials in New York affect FBI field 
offices in this region?
    Answer. If the trials were held in New York, FBI would assign 
personnel from the New York office and other FBI divisions as 
necessary, and would coordinate with the appropriate Federal, State, 
and local authorities in regards to trial logistics and security.
    Question. Would agents from other field offices be shifted to the 
New York? If so, how would this affect their normal duties?
    Answer. If the trials were held in New York, FBI would assign 
personnel from the New York Office and other FBI divisions as 
necessary. Because the 9/11 co-conspirators will be tried by military 
commissions at Guantanamo Bay, Cuba, however, FBI need not plan to 
reassign agents to address trials in New York City.
    Question. What impacts would this affect FBI's overall mission?
    Answer. Since the 9/11 co-conspirators will be tried by military 
commissions at Guantanamo Bay, Cuba, FBI's overall mission will not be 
impacted.
                          fort hood shootings
    Question. The Senate Homeland Security and Government Affairs 
Committee issued a report on the events surrounding the shootings at 
Fort Hood that took place in November 2009. The report criticizes FBI, 
citing that FBI field offices failed to recognize warning signs that 
Nidal Malik Hasan was a threat. The report also concluded that FBI had 
sufficient information to detect that he was a ``ticking time bomb'' 
who had been radicalized to violent Islamist extremism, but failed to 
understand and act on it. FBI has been provided significant funding 
since 9/11 to bolster its intelligence program which includes the 
hiring and professionalizing its intelligence analyst workforce. 
According to the report, FBI failed to use its analysts in this 
situation.
    What is your response to this report and what has the FBI done in 
response to the Fort Hood shootings?
    Answer. During the internal FBI review undertaken immediately after 
the attack at Fort Hood, FBI identified several of the areas of concern 
outlined in the report and, as noted in the report, has implemented 
changes to its systems and processes to address them. FBI will review 
each of the report's recommendations and adopt them, as appropriate.
    While concluding that FBI's transformation to an intelligence-
driven organization remains a work in progress, the report recognizes 
FBI's substantial progress and many successes, led by JTTFs, in 
disrupting terrorist plots by homegrown extremists.
    In addition, at the request of FBI Director Mueller, Judge William 
H. Webster is conducting an independent, outside review of the FBI's 
actions with respect to the attacks at Fort Hood. Judge Webster and his 
team are evaluating the corrective actions taken to determine whether 
they are sufficient and whether there are other policy or procedural 
steps FBI should consider to improve its ability to detect and prevent 
such threats in the future.
    Question. What changes have you made to ensure this tragedy does 
not happen again?
    Answer. Immediately after the tragedy, FBI Director Robert Mueller 
ordered a preliminary review of the FBI's actions, as well any relevant 
policies and procedures that may have guided the FBI's actions before 
the shooting. In addition, the Director asked for recommendations as to 
what changes should be made as a result of that review.
    On December 8, 2009, Director Mueller asked Judge William H. 
Webster to conduct a more comprehensive, independent review of FBI 
policies, practices, and actions. That review is currently underway. 
The goal of these reviews is the same, to look at both the actions of 
individuals involved and the systems in place at the time of the tragic 
events at Fort Hood and to ensure that investigators have the tools 
they need to effectively carry out their responsibilities in today's 
evolving threat environment. The paramount concern in this process is 
to make sure that the systems and policies that are in place support 
public safety and national security.
    In addition, as a result of the internal review, FBI identified 
four areas for immediate adjustment and improvement.
Protocols With the Department of Defense (DOD)
    Although information-sharing has dramatically improved since 
September 2001, there is still room for improvement in certain areas, 
especially given the changing nature of the terrorist threat, and the 
need to constantly recalibrate approaches and responses. Working with 
DOD, FBI has formalized a process for centrally notifying DOD of FBI 
investigations involving military personnel. This should streamline 
information-sharing and coordination between FBI and all components of 
DOD, where appropriate, and as permitted by law. Improved processes for 
exchanging information will help ensure that FBI task force officers, 
agents, and analysts have all available information to further their 
investigations.
Additional Levels of Review
    FBI determined that intelligence collected in connection with 
certain threats--particularly those that affect multiple equities 
inside and outside the FBI--should have a supplemental layer of review 
at the FBIHQ level. This redundancy in the review process will limit 
the risk of human error by bringing a broader perspective to the 
review. In this way, FBI should have a better institutional 
understanding of such threats.
Technological Improvements
    During the course of the internal review, FBI identified IT 
improvements that should be made to its systems. Those improvements, 
which are being engineered, should strengthen FBI agents' and analysts' 
ability to sift through information by automatically showing certain 
connections that are critical to uncovering threats.
Training for Members of JTTFs
    FBI increased training for members of JTTFs to better ensure JTTF 
members know how to maximize access to all available information and to 
best utilize existing tools to identify and link critical information. 
Specifically, JTTF Task Force Officer (TFO) training consists of three 
components:
  --orientation and operations training;
  --database training; and
  --computer-based training.
    Training addressing legal restrictions that govern the retention 
and dissemination of information was also expanded and strengthened.
    The JTTF TFO Orientation & Operations Course (JTOOC) was 
established prior to Fort Hood and has continued to evolve as training 
is evaluated to ensure the best possible instruction is provided to 
TFOs. The JTOOC is now a 5-day course designed to develop a basic 
familiarization with counterterrorism investigations for all TFOs 
assigned to JTTFs. JTOOC classes are designed around a notional 
counterterrorism case to facilitate discussion and participant 
interaction.
    In fiscal year 2010, in response to the initial Fort Hood findings, 
the FBI Counterterrorism Division (CTD) mandated that JTTF members 
receive hands-on training on key FBI databases and systems. Database 
training is now required for all JTTF members including special agents, 
TFOs, intelligence analysts, and other personnel assigned to JTTFs who 
have access to systems and conduct investigative work.
    FBI provides computer-based training to its employees via the FBI 
Virtual Academy system. CTD has identified 12 specific Virtual Academy 
training modules as the baseline level of training for JTTF personnel. 
All personnel assigned to a JTTF or working counterterrorism matters 
are required to complete these baseline training modules.
             effects of fiscal year 2010 levels on the fbi
    Question. Although this hearing is about the fiscal year 2012 
budget request, this subcommittee is also currently negotiating the 
fiscal year 2011 budget. Specifically, FBI will unable to backfill 
1,100 positions and would be facing a deficit of more than $200 million 
if left to operate at fiscal year 2010 funding levels.
    Is this true, and how will this affect this country's national 
security?
    Answer. The fiscal year 2011 enacted appropriation included an 
increase that enables the FBI to backfill these positions, and since 
current services requirements were provided, there is not a $200 
million shortfall.
    Question. Can agents be furloughed or is there a prioritization of 
personnel in all of the enforcement agencies?
    Answer. FBI agents can be furloughed, taking into account the 
safety of human life or protection of property when making decisions 
about furloughing staff. However, FBI does not anticipate furloughing 
any staff in fiscal year 2011.
    Question. How does this affect the fiscal year 2012 budget that we 
see before us today?
    Answer. Because the fiscal year 2012 President's budget request was 
developed using the fiscal year 2011 current rate as the starting 
point, the fiscal year 2011 enacted budget has little impact on the 
fiscal year 2012 request. The fiscal year 2012 budget request includes 
mandatory increases and annualizations needed to maintain current 
investigative and litigating efforts.
                             hybrid squads
    Question. Hybrid squads integrate FBI personnel with different 
types of expertise to address different types of threats and provide 
the best framework to disrupt the infrastructure of the Mexican drug 
cartels. The squad's composition provides different backgrounds and 
functional expertise, ranging from violent gangs, public corruption, 
and violent crimes. An amount of $15.9 million is requested for fiscal 
year 2012 to annualize and sustain the FBI's hybrid squads, which 
received $17 million in the fiscal year 2010 Southwest Border 
supplemental to create six of these teams.
    Have the teams created in the supplemental been deployed?
    Answer. Yes, FBI currently has nine fully deployed hybrid squads 
along the Southwest Border. They are located in the following field 
offices:
  --San Diego;
  --Albuquerque, New Mexico (Las Cruces Resident Agency [RA]);
  --El Paso;
  --San Antonio, (Del Rio RA and McAllen RAs);
  --Dallas;
  --Phoenix, Arizona;
  --Tucson, Arizona; and
  --San Juan, Puerto Rico.
    Question. Can you discuss the composition and concept of hybrid 
squads and where they are deployed?
    Answer. Mexican Criminal Enterprises (MCEs) are involved in 
significant criminal activity that threatens United States national 
security interests, including, but not limited to:
  --violent crime;
  --kidnapping; drug trafficking;
  --alien smuggling;
  --public corruption;
  --assaults on Federal officers;
  --murder; and
  --human trafficking.
    Each hybrid squad consists of, at a minimum, one supervisory 
special agent; five special agents; one intelligence analyst (IA); and 
one staff operations specialist (SOS) who are subject matter experts in 
the MCEs and the threats they pose in their area of responsibility 
(AOR). In addition, hybrid squads will identify State and local 
resources investigating violent crimes in its AOR in order to leverage 
their expertise and intelligence base in support of its operational 
strategies.
    Hybrid squads were established to address the cross-programmatic 
threat posed to the United States by MCEs operating on the Southwest 
Border and to allow for the implementation of a cross-programmatic, 
multi-agency approach to the investigation of significant crimes 
perpetrated by MCEs, including:
  --murder;
  --kidnapping;
  --extortion;
  --home invasions;
  --drug and weapon trafficking;
  --money laundering;
  --alien smuggling (particularly Special Interest Aliens [SIA]);
  --Assault of or Killing a Federal Officer; and
  --other violent crimes being perpetrated by the MCEs in order to 
        impact the cross-border criminal violence created by those MCEs 
        in their AOR.
    Hybrid squads actively contribute to the flow of intelligence by 
coordinating with local Field Intelligence Groups with the Southwest 
Border Watch FBIHQ component.
    The hybrid squads have enhanced FBI resources dedicated to 
combating the violent crime threat posed by MCEs, and have expanded the 
FBI's intelligence collection efforts against MCEs. Hybrid squads have 
become an integral part of the FBI's overall strategy designed to 
penetrate, disrupt, and ultimately dismantle the MCEs that pose the 
greatest threat to U.S. national security.
    They are located in the following field offices:
  --San Diego;
  --Albuquerque, New Mexico (Las Cruces Resident Agency [RA]);
  --El Paso;
  --San Antonio, (Del Rio RA and McAllen RAs);
  --Dallas;
  --Phoenix, Arizona;
  --Tucson, Arizona; and
  --San Juan, Puerto Rico.
                             innocence lost
    Question. Innocent Lost targets child prostitution and sex 
trafficking, and is a partnership between FBI, the National Center for 
Missing and Exploited Children, and the Justice Department's Child 
Exploitation and Obscenity Section. This is one of the FBI's most 
important missions. The request for this program is $19 million.
    Can you tell us about the partnership with the National Center for 
Missing and Exploited Children, and the impact the Innocence Lost 
program has had in just 8 years of existence?
    Answer. The National Center for Missing and Exploited Children 
(NCMEC) supports the Innocence Lost National Initiative (ILNI) through 
training and analytic resources. This partnership has resulted in a 
course, ``Protecting Victims of Child Prostitution,'' which provides 
Federal/State/local law enforcement officers and prosecutors, as well 
as victim specialists, with a basic introduction to the child 
prostitution threat and how to work with child victims. To date, 1,300 
individuals have received this training. The NCMEC also uses its intake 
system to maintain a repository on children who are suspected to be at 
risk of exploitation through prostitution. To date, the NCMEC has 
received more than 4,200 intake reports, with 940 pertaining to 
children under 14 years of age.
    As of May 17, 2011, the ILNI had 572 pending cases, 599 
informations/indictments, and 724 convictions. Furthermore, subjects of 
these investigations are regularly sentenced to terms of 25 years or 
more, while six have received life sentences. Since its inception, 
1,628 children have been recovered and removed from the cycle of abuse.
    Question. What are your plans for this vital initiative in the 
future?
    Answer. FBI places a high priority on assisting child victims of 
sexual exploitation and plans to continue addressing this problem 
through ILNI. The ILNI targets criminal organizations engaged in the 
commercial sexual exploitation of children, such as child prostitution. 
FBI currently has 42 task forces and working groups addressing this 
threat. Investigations have identified national criminal organizations 
responsible for the sex trafficking of hundreds of children, some as 
young as 9 years old.
    FBI currently has 26 formalized task forces and 16 ad-hoc working 
groups across the Nation addressing the threat. These task forces and 
working groups consist of approximately 240 State and local law 
enforcement participants.
    FBI has developed a national database, the Innocence Lost Database 
(ILD), containing more than 22,000 records pertaining to offenders, 
associates and child victims. To date, 3,400 of these records pertain 
to child victims. This database serves as a national repository for 
intelligence and is available to Federal/State/local law enforcement 
24/7 via Law Enforcement Online (LEO), which is a controlled-access 
communications and information sharing data repository. Future plans 
include a robust enhancement to the database to include a webcrawler to 
compare intelligence to social networking sites, as well as facial 
recognition to assist in identifying child victims.
    Question. Is $19 million an adequate request for this initiative?
    Answer. The $19 million request is sufficient to maintain current 
services.
                            innocent images
    Question. NCMEC reported to us that they are working with FBI in an 
effort to identify and rescue the children being victimized in child 
pornography. NCMEC also reported that it reviewed 13 million images and 
videos last year alone.
    FBI also assigns an agent and four analysts from the Cyber 
Division/Innocent Images to work with NCMEC on Internet crimes against 
children, particularly child pornography. It seems clear that the 
problem of child pornography has exploded with the advent of the 
Internet. I know that your Innocent Images Initiative has been 
successful. The request is $69 million for Innocent Images.
    Is this an appropriate request?
    Answer. The Innocent Images threat is large and FBI will prioritize 
its caseload to effectively meet investigative requirements within the 
$69 million level.
    Question. What more can we do to combat this insidious problem?
    Answer. The Innocent Images National Initiative (IINI) program has 
collaborated with State, local, Federal, and international law 
enforcement partners, as well as private industry, to address this 
problem. Although the IINI program has been quite successful at 
combating the online threat of online child sexual exploitation, IINI 
recognizes that it cannot arrest its way out of this societal dilemma. 
Therefore, IINI has launched a national outreach program for elementary 
and middle schools to make children and parents aware of online dangers 
and the safety measures needed to prevent children from being sexually 
exploited. The program is called FBI Safe Online Surfing (SOS). Through 
May 2011, FBI has been able to reach approximately 140,000 students 
(from all 50 States) with this outreach initiative.
    relationship between intellectual property (ip) theft and crime/
                               terrorism
    Question. A 2009 RAND study, as well as other analysis, concludes 
that there was clear evidence that terror groups, as well as organized 
criminal enterprises, engage in various forms of IP theft because it is 
a low-risk, high-profit enterprise.
    Are you aware of any specific Government-wide systematic review of 
the ties between and among terror groups and/or organized crime and IP 
theft?
    Answer. FBI, as a partner in the National Intellectual Property 
Rights Coordination Center (IPR Center), recently conducted a threat 
assessment of IPR violations to the United States. The resulting 
document, entitled ``Intellectual Property Violations: A Baseline 
Global Assessment of the Threats to United States' Interests at Home 
and Abroad'', is a comprehensive analysis of the global threat to 
United States interests from criminal IPR violations including, the 
nature of the threat, the magnitude, the types of offenders committing 
these offenses, and its source. In analyzing the types of offenders, 
the assessment considered the role of criminal organizations including 
criminal enterprises, traditional organized crime groups, terrorist 
organizations and gangs. Among other things, the assessment identified 
the types of goods that are most often counterfeited or pirated by 
these types of offenders, the role they play in committing IP crime 
(e.g. manufacturing, distribution, retail), and where they are 
generally located.
    The contributors to this report conducted interviews with IPR 
experts in the United States, China, and India, including experts in 
government, industry, and academia. Researchers analyze relevant United 
States Intelligence Community (USIC) reporting information from Federal 
law enforcement investigations, industry generated reports, and other 
open source research.
    In addition, in Sec. 402(b) the Prioritizing Resources and 
Organization for Intellectual Property Act of 2008 (PRO IP Act), Public 
Law 110-403, the Congress directed the Department, subject to the 
availability of appropriations, to develop a long-range plan to 
identify and address the links between organized crime and IP. Although 
this portion of the PRO IP Act remains unfunded, the Department has 
taken a number of steps to implement the goals of this provision. For 
example, consistent with its long-term commitment to fighting organized 
crime in all forms, the Department has incorporated IP into its 
International Organized Crime Strategy; the Attorney General's 
Organized Crime Council (AGOCC) has prioritized IP enforcement, 
adopting as part of its 2010 Action Plan a specific goal to enhance law 
enforcement coordination in this area; and the Department's IP Task 
Force has designated the investigation and prosecution of IP crimes 
perpetrated by organized crime groups a law enforcement priority. More 
detailed information on these efforts are included in the Department's 
fiscal year 2009 and fiscal year 2010 PRO IP Act Reports. See http://
www.cybercrime.gov/proipreport2010.pdf and http://www.justice.gov/
criminal/cybercrime/proipreport2009.pdf.
    Question. If not, are you aware of any plans within the Department 
of Justice or any other Department or agency to conduct such a review?
    Answer. FBI, as a partner in the National Intellectual Property 
Rights Coordination Center (IPR Center), produced the ``Intellectual 
Property Violations: A Baseline Global Assessment of the Threats to the 
United States' Interests at Home and Abroad'' as a comprehensive 
analysis of the global threat to the United Sates interests from 
criminal IPR violations.
                 impact of a government shutdown on fbi
    Question. Director Mueller, I hope the Government does not shut 
down, but this is a reality at FBI that should be discussed, 
specifically the national security and public safety implications.
    Can you tell us what happens at FBI in the event of shutdown?
    Answer. FBI must be able to respond to contingencies during a lapse 
of appropriations that are reasonably likely to compromise the safety 
of human life or protection of property in some significant degree. 
Accordingly, in the April 2011 contingency plan all FBI agents and 
support personnel in the field were considered ``excepted'' from 
furlough. This includes the 56 domestic field offices, 400 resident 
agencies, 61 Legal Attache (LEGAT) offices, and 14 LEGAT sub-offices.
    At FBIHQ, a total of 59 percent of staff were considered excepted 
in the April 2011 contingency plan, including 90 percent of the agents, 
88 percent of intelligence analysts, and approximately 49 percent of 
other support personnel. These positions provide direction and 
investigative support to all field operations and excepted FBIHQ 
functions.
    Question. Do you believe that a Government shutdown could have an 
impact on FBI's counterterrorism mission? Would it have an impact 
ongoing investigations?
    Answer. While a total of 89.3 percent of FBI personnel were 
excepted and not subject to furlough in the April 2011 contingency 
plan, a Government shutdown could have a negative impact on FBI's 
counterterrorism mission as critical support functions provided by the 
remaining furloughed employees would not be available.
    Question. Are any agents or intelligence analysts furloughed? If 
so, where are they located and how is this determined?
    Answer. In the April 2011 contingency plan, 10 percent of agents 
and 12 percent of intelligence analysts at FBIHQ would be furloughed. 
The decision to furlough takes into account the safety of human life or 
protection of property. However, FBI does not anticipate furloughing 
any staff in fiscal year 2011.
    Question. FBI has agents and personnel stationed overseas. How 
would a shutdown affect them?
    Answer. In the April 2011 contingency plan, all FBI agents and 
support personnel stationed overseas are considered excepted from 
furlough. However, overseas personnel would be operating without the 
support of those FBIHQ employees not excepted from furlough.
                       otms--other than mexicans
    Question. As we discussed earlier this week, I read an alarming 
column in Texas Monthly. It stated that the head of the Texas 
Department of Public Safety testified before the Texas Senate Finance 
Committee, conveying statistics that law enforcement officials in the 
Rio Grande Valley had apprehended 287 illegal aliens categorized as 
``OTMs'' or ``Other Than Mexicans''. The OTMs came from countries that 
are home to active al Qaeda cells or Taliban activity--Yemen, Iran, and 
Pakistan.
    The article also cited a General Accounting Office statistic that 
law enforcement catches less than 6.5 percent of the criminal activity 
coming across the border, and it was extrapolated that these 287 OTMs 
captured represents only 6.5 percent of the threat crossing the border.
    Is it possible that some of these OTMs are potential terrorists or 
could have terrorist ties? Do you believe terrorists are attempting to 
enter the United States through the Southwest Border and can you 
discuss your understanding of this situation?
    Answer. FBI remains concerned that terrorists seek to exploit the 
Southwest Border as a means of gaining access to the United States. Two 
recent arrests near the United States-Mexico border indicate that some 
Special Interest Aliens (SIAs) advocate violent Islamic extremism or 
have some connections to overseas terrorist organizations.
    United States border authorities in January 2011 arrested Tunisian 
national and formerly Montreal, Canada-based imam, Said Jaziri, after 
he allegedly paid a Tijuana-based smuggling group to take him across 
the United States-Mexican border in the trunk of a vehicle. Prior to 
his deportation by Canadian authorities in 2007, Jaziri publicly 
advocated for the imposition of Sharia law in Canada and called for the 
death of the Danish newspaper cartoonist who drew pictures of the 
Prophet Muhammad.\1\ \2\
---------------------------------------------------------------------------
    \1\ Los Angeles Times, ``Controversial Muslim cleric is arrested 
while sneaking into the U.S.'', 27 January 2011.
    \2\ UK Daily Mail, ``Controversial Muslim cleric caught being 
smuggled into the U.S. over Mexico border'', 28 January 2011.
---------------------------------------------------------------------------
    In April 2011, Ahmed Muhammed Dhakane, an ethnic Somali was 
sentenced to 10 years in prison for failing to acknowledge ties to an 
East African extremist group and lying on an asylum application. 
Dhakane was arrested on immigration charges in Brownsville, across the 
Rio Grande from Matamoros, Mexico in March 2008. It was discovered he 
provided false information on his entry into the United States and 
controlled a large-scale human smuggling enterprise.\3\
---------------------------------------------------------------------------
    \3\ Associated Press, ``Somali sentenced for lying about terrorism 
links'', 28 April 2011.
---------------------------------------------------------------------------
    FBI believes that the illicit flow of SIAs across the United 
States-Mexico border into the United States offers al Qaeda and 
affiliate organizations a potential opportunity for smuggling a 
terrorist operative or supporter into the United States. Many of the 
human smuggling networks that operate between Latin America and the 
United States are connected with smugglers from other parts of the 
world and these networks are willing to smuggle undocumented persons of 
any nationality, provided that the individual is able to pay the 
smuggling fee. FBI and its law enforcement and intelligence partners 
continue to investigate aliens and human smuggling networks with 
possible connections to terrorist organizations who may be seeking 
access to the United States via the Southwest Border.

                      [Monday, February 21, 2011]

                          Other Than Mexicans
             (posted by Patricia Kilday Hart at 7:10 p.m.)
    Department of Public Safety Director Steve McCraw testified before 
Senate Finance today, sharing his concern that crime in Dallas, 
Houston, Austin and San Antonio is very much connected to Mexican drug 
cartels, operating though the potent prison gangs Texas Syndicate and 
Texas Mafia.
    For most, that's not particularly ``new'' news. But McCraw also 
shared some statistics that gave his audience great pause: Last year, 
law enforcement agencies operating in the Rio Grande Valley apprehended 
what they refer to as 287 OTMs--illegal immigrants from countries with 
active al Qaeda cells or Taliban activity. Places like Yemen, Iran, 
Pakistan, etc. Even more startling was a Federal Government 
Accountability Office statistic that law enforcement's net catches only 
about 6.5 percent of the criminal activity coming across the border. In 
the hearing, Senator Dan Patrick suggested that we could extrapolate 
that the 287 potential ``terrorists'' represents only 6.5 percent of 
the total threat.
    McCraw gave the Finance Committee solid reasons to believe that 
investment in border security operations reaps dividends. Last year, 
thanks to an additional State-funded DPS presence on the border, drug 
seizures increased 124 percent and cash seizures jumped by 137 percent.
    Neither the Senate or House proposed bills cut too deeply into DPS 
border operations, but my prediction is that this is one area of the 
budget that won't be trimmed.

    Question. Does the FBI get involved when these individual are 
captured? What do you believe can be done to prevent this situation?
    Answer. The Department of Homeland Security's (DHS) Customs and 
Border Protection (CBP) and Immigration and Customs Enforcement (ICE) 
are the primary Federal agencies that are involved in the interdiction 
and removal of aliens entering the United States illegally. That said, 
if CBP or ICE determine that a captured illegal alien warrants further 
scrutiny, those individuals are first interviewed by their 
investigative elements. If they believe a nexus to terrorism exists, 
FBI is called in for further investigation.
    FBI defers to DHS to provide information on preventive measures.
    I also understand there have been a number of Somalians attempting 
to illegally enter the country through the Southwest Border, and that 
there are some serious issues because there is no official government 
in Somalia to deport them to.
    Question. What is the process once a Somalian or individual 
captured from a country without a recognized government is in our 
custody?
    Answer. In this instance, FBI would not be involved as this is an 
immigration issue. DHS' Customs and Border Protection (CBP) and 
Immigration and Customs Enforcement (ICE) would be the lead agencies 
for this matter. DHS will determine the appropriate means for cases 
involving such an alien. In some cases, DHS may choose to place the 
alien in immigration judge proceedings conducted by DOJ's Executive 
Office for Immigration Review.
              lack of support for southwest border efforts
    Question. DOJ components are often overlooked by the administration 
when crafting Southwest Border budgets and legislation.
    Director Mueller, I am concerned that only $130 million of FBI's 
$8.1 billion total request is dedicated to Southwest Border activities. 
I understand FBI requested more resources in last year's Southwest 
Border supplemental. I also understand that FBI was directed to request 
no new enhancements in the fiscal year 2012 request--yet DOJ was 
burdened with more than $1 billion of unrequested programs or new 
enhancements.
    (New or unrequested programs--COPS Hiring for $600 million; Medical 
Malpractice Grants for $250 million; Juvenile Justice Race to the 
Top,;Community Based Violence Prevention Grants; Violence Against Law 
Enforcement Officer grants).
    Could you discuss what FBI is doing to address violence and 
corruption along the Southwest Border and what resources you still 
need?
Violence
    Answer. In addition to the standard deployment of resources to gang 
squads, drug/High Intensity Drug Trafficking Areas (HIDTA) squads, 
violent crime squads, and task forces in field offices along the 
Southwest Border, FBI has the following resources/initiatives to 
address Southwest Border violent criminal activity:
      Hybrid Squads.--Each hybrid squad consists of at least one 
        supervisory special agent, five special agents, one 
        Intelligence Analyst, and five professional staff positions. 
        Hybrid squads address the cross-programmatic threat posed to 
        the United States by Mexican Criminal Enterprises (MCEs) 
        operating on the Southwest Border and allows for the 
        implementation of a cross-programmatic, multi-agency approach 
        to the investigation of significant crimes perpetrated by MCEs, 
        including:
    --murder;
    --kidnapping;
    --extortion;
    --home invasions;
    --drug and weapon trafficking;
    --money laundering;
    --alien smuggling (particularly SIA);
    --Assault or killing a Federal officer; and
    --other violent crimes being perpetrated by the MCEs in order to 
            impact the cross-border criminal violence created by those 
            MCEs in their AOR.
    --Regarding the Southwest Border, the most critical element in 
            fiscal year 2012 is sustainment of the 78 positions (44 
            agents) received in the fiscal year 2010 border security 
            supplemental, which was requested in the fiscal year 2012 
            President's budget.
  --Southwest Border Rapid Deployment Team to respond to crises such as 
        the recent shootings of ICE and CBP agents.
  --Intelligence Collection and Exploitation Unit:
    --Partners with other Federal agencies (ICE, CBP, National Security 
            Agency [NSA]) for intelligence sharing at FBIHQ in 
            Washington, DC;
    --Participates in the El Paso Intelligence Center (EPIC) in the 
            field.
      Southwest Regional Intelligence Group.--Serves as the 
        clearinghouse of all FBI activities involving Mexico and is 
        housed at EPIC. It was established to remedy any intelligence 
        gaps along the Southwest Border.
      OCDETF Co-located Strike Forces.--Strike Forces serve as the 
        DOJ's primary prosecutor-led, multi-agency task forces aimed at 
        aggressively targeting the highest-level drug-trafficking 
        organizations. FBI has 118 personnel (87 agents and 11 
        intelligence analysts) assigned to the OCDETF Strike Forces. 
        Approximately two-thirds are on Strikeforces that address 
        Southwest Border-related issues. There are tactical 
        partnerships between FBI's Hostage Rescue Team and CBP's Border 
        Patrol Tactical Unit.
      FBI Border Liaison Officers.--Border Liaison Officers work to 
        establish relationships and exchange information with Mexican 
        law enforcement with the goal of easily sharing vital 
        intelligence.
      Training for Mexican Law Enforcement.--Mexican American Law 
        Enforcement Training; Latin American Law Enforcement Executive 
        Development Seminars; FBI anti-kidnapping training.
  --New partnerships with local law enforcement.
    --Cartel Murder Initiative--Dallas, Texas FBI Field Division--
            Dallas, Texas Police Department.
    In addition, the FBI's MS-13 National Gang Task Force has 
instituted the Central American Fingerprint Exchange (CAFE) initiative, 
as well as the Transnational Anti-Gang initiative (TAG), which 
coordinates the sharing of gang intelligence between FBI and its law 
enforcement partners in El Salvador, Guatemala, Honduras, and the 
United States.
    CAFE was developed to collect and store existing biometric data/
fingerprint records from El Salvador, Guatemala, Belize, Honduras, as 
well as Chiapas, Mexico. These records are being integrated into the 
general database of FBI's Criminal Justice Information Services 
Division, and will be accessible to all Federal, State, local, agencies 
in the United States through the Integrated Automated Fingerprint 
Identification System (IAFIS). CAFE will enable participating countries 
to conduct fingerprint identification and analysis by providing system 
hardware and training.
    TAG was created to assist in combating the growing threat posed by 
transnational gangs and drug cartels in Latin America. The objective of 
TAG is to aggressively investigate, disrupt, and dismantle gangs whose 
activities rise to the level of criminal enterprises. TAG combines the 
expertise, resources, and jurisdiction of participating agencies 
involved in investigating and countering transnational criminal gang 
activity (specifically MS-13 and 18th Street), in the United States, El 
Salvador, Honduras, Guatemala, and Mexico. Through information sharing 
and open communication with the Policia Nacional Civil (PNC) of El 
Salvador, the TAG is in a position to acquire and disseminate valuable 
information previously unavailable to FBI field offices. Utilizing the 
support of the host countries and participating law enforcement 
agencies, the TAG employs a comprehensive approach to address the 
threat which MS-13 and 18th Street present to the United States and to 
Central America.
Public Corruption (PC)
    As of February 23, 2011, there were 127 agents dedicated to PC 
investigations along the Southwest Border. These agents coordinate 
efforts with Federal, State, and local law enforcement partners, 
including 13 FBI-led Border Corruption Task Forces (BCTFs) and 1 Border 
Corruption Working Group (BCWG) along the Southwest Border and 1 
National Border Corruption Task Force at FBIHQ in Washington, DC.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    Question. The recent Homeland Security and Governmental Affairs 
Committee report on Fort Hood found a failure of the Federal Bureau of 
Invetigation (FBI) to adequately share critical information at the 
Joint Terrorism Task Forces (JTTFs). Namely, the JTTF in San Diego 
failed to share all the information it had about an Army Major's 
relevant communications with a suspected terrorist with the Washington 
JTTF, FBI headquarters (FBIHQ), and the Department of Defense (DOD). 
While it sent a memo to the Washington JTTF (as Major Hasan was 
stationed at Walter Reed Hospital at the time), and copied FBI 
Counterterrorism Division, FBI only considered it to be a 
``discretionary lead''. The Washington JTTF spent 4 hours on the last 
day of the 90-day due date to review the request and respond, and while 
the San Diego JTTF believed the analysis to be ``slim'', at no time did 
FBIHQ interject or coordinate intelligence analysis or the 
investigation.
    Similar to the situation that existed prior to the 9/11 attacks, 
the failure to share critical information resulted in deadly tragedy. 
The 9/11 Commission report found that:

    ``The FBI did not have the capability to link the collective 
knowledge of agents in the field to national priorities. The acting 
director of the FBI did not learn of his Bureau's hunt for two possible 
al Qaeda operatives in the United States or about his Bureau's arrest 
of an Islamic extremist taking flight training until September 11. The 
Director of Central Intelligence knew about the FBI's Moussaoui 
investigation weeks before word of it made its way even to the FBI's 
own Assistant Director for Counterterrorism.'' (p. 352).

    I am afraid that, since 9/11, the message that information sharing 
is critical has dissipated, and the Fort Hood incident indicates that 
FBI's field offices still do not adequately communicate with FBIHQ, 
much less other agencies.
    What has been done since Fort Hood and 9/11 to ensure that field 
offices are sharing information with a central headquarters office that 
coordinates counterterrorism intelligence, analysis, and 
investigations?
    Answer. Since 9/11, FBI has made steady progress in the realm of 
information sharing, moving ahead simultaneously in three ways:
  --Creating processes that make information sharing quicker, easier, 
        and more effective;
  --Creating a culture that values and encourages information sharing; 
        and
  --Creating organizational structures to advocate for information 
        sharing and provide oversight to information sharing practice.
    The most important progress has come with the creation and 
maturation of the Field Intelligence Groups (FIGs). The FIGs are 
composed of intelligence analysts, special agents, and other specialty 
staff such as language analysts and surveillance personnel, each of 
whom plays a role in the collection, analysis, production, and 
dissemination of intelligence. Specifically regarding information 
sharing, the FIGs disseminate information obtained by the field office 
that might be of value to other law enforcement or intelligence 
community partners.
    Generally, information is shared in the form of Intelligence 
Information Reports (IIRs), which are sent not only to others in FBI, 
but also to FBI's partners in the U.S. intelligence community, to DOD 
and the Department of Homeland Security (DHS). Most IIRs contain 
``tearlines'' so that the gist of the information is also shared with 
State and local law enforcement, as well as with our foreign partners. 
A recently developed product is our Situational Information Report 
(SIR). SIRs are the primary means by which field offices share timely 
and detailed unclassified information on matters relevant to entities 
within their domain, including State, local, and tribal partners.
    When FIGs were first established, IIRs that they drafted were all 
sent to FBIHQ for review and editing before being disseminated outside 
FBI. Starting this year, IIRs have been disseminated directly by FIGs, 
reflecting the higher level of professionalism created by several years 
of training, oversight, and experience. This direct dissemination means 
that information sharing is both faster and more extensive.
    On December 31, 2010, FBI created six Regional Intelligence Groups 
(RIGs) to facilitate information sharing among FIGs and to carry out 
analysis of developments that extend beyond the purview of a single 
field office. RIGs support the field offices in their efforts to 
identify risks and threats, and to develop an understanding of how 
these risks and threats impact the region. As emerging threats and 
trends that transcend field office boundaries emerge, the RIGs will 
facilitate awareness of regional field office collection postures to 
identify opportunities for shared source exploitation. All products 
produced by FIGs and RIGs are also shared with the appropriate FBIHQ 
mission program managers.
    Moreover, information sharing with Federal, State, and local law 
enforcement partners in JTTFs and Federal-level centers like the 
National Counterterrorism Center (NCTC) and Terrorist Screening Center 
(TSC) have been instrumental in focusing investigations on terrorist 
organizations and operations. FBI has mandated that JTTF members 
receive hands-on training on key FBI databases and systems. Database 
training is now required for all JTTF members including special agents, 
Task Force Officers, intelligence analysts and other personnel assigned 
to JTTFs who have access to systems and conduct investigative work. Use 
of community outreach, as well as law enforcement and private sector 
partnerships, in programs such as Tripwire, which identifies groups or 
individuals whose suspicious behavior may be a precursor to an act of 
terrorism, have resulted in significant tips and leads for FBI that 
have in turn led to timely intercept of terrorist activities. FBI has 
created a shareable database known as eGuardian that contains 
information regarding threats or suspicious incidents that appear to 
have a nexus with terrorism.
    In 2010, DOD decided to adopt eGuardian for its own use. Also in 
2010, FBI and DOD entered into a Memorandum of Understanding, that 
requires FBI Counterterrorism Division and field offices to notify ``a 
DOD representative in'' the national JTTF when an assessment or 
investigation is initiated regarding a military or DOD-affiliated 
individual. These efforts will greatly facilitate the exchange of 
suspicious activity reports between FBI and the DOD.
    Finally, FBI has been a supporter of State and local Fusion 
Centers, which have become another avenue for information sharing 
between the Federal Government and State, local, tribal, and private 
sector entities. FBI encourages its field offices to maintain a close 
working relationship with the FIGs and the Fusion Centers in their area 
of responsibility.
    A particularly noteworthy recent development was the decision in 
February 2011 to appoint an additional Deputy Assistant Director (DAD) 
within the Directorate of Intelligence to manage a program of 
``intelligence integration''. The point is to move beyond merely 
sharing information and toward collaborative work on understanding the 
significance of the information that is shared. FBIHQ Counterterrorism 
Division continues to serve as the coordinator for counterterrorism 
investigations, while the new DAD for Intelligence Integration is 
working to ensure that these investigations receive support from 
intelligence analysis that brings together and integrates intelligence 
and information from every possible source.
    Question. Some of the recent terrorist plots remind us that the key 
to disrupting an attack is often the action of an alert citizen who, in 
the course of his or her everyday business, notices and reports a 
suspicious activity.
    Previously, Senator Lieberman and I authored a provision, which 
became law, that we refer to as the ``See Something, Say Something'' 
law. The provision was a response to a lawsuit against citizens who 
were sued after reporting suspicious activity aboard a US Airways 
flight that was about to depart Minneapolis in 2006. It provides 
protection from lawsuits when individuals report suspicious activity in 
good faith regarding potential threats to the transportation sector.
    We introduced a bill this Congress that would expand this 
protection beyond the transportation sector, encompassing good faith 
reports of suspicious activity that may indicate that an individual is 
engaging in or preparing to engage in terrorist acts in general. NYPD 
Commissioner Kelly endorsed this legislation, saying it makes ``eminent 
good sense . . . and I certainly would recommend that it be expanded.''
    Do you think that if this bill were to be enacted into law it would 
increase the likelihood that more terrorist plots would be disrupted 
thanks to the actions of vigilant citizens?
    Answer. While it would appear that such a law, if enacted, would 
increase the likelihood that more terrorist plots would be disrupted, 
the Department does not have any data to support or refute this 
assertion.
    Question. Late last year, the Inspector General of the Department 
of Justice issued a report finding widespread cheating by employees of 
FBI on the standard examination to test knowledge of the Domestic 
Investigations and Operations Guide (DIOG). We exchanged regarding this 
unfortunate finding.
    The examination is designed to ensure that FBI employees understand 
all the investigative authorities--and the limits and civil liberties 
restrictions to those authorities--in investigating individuals in this 
country. This is all the more important with the extended authorities 
that FBI has post-9/11, especially with regards to domestic 
intelligence gathering. But there were many egregious cases of 
cheating, including those involving high-level Special Agents in 
Charge, and cybercrimes investigators using their computer skills to 
hack into code to reveal answers.
    It is fully recognized that Director Mueller has endeavored to 
maintain the core principle of integrity within FBI and has strived to 
transform FBI into an agile agency that is well-suited to defend 
against crimes and other terrorism threats.
    A December letter concerning this incident indicates that FBI will 
be releasing the next edition of the DIOG, and that FBI employees will 
be tested on their knowledge of the new DIOG. Please provide a status 
update on that effort.
    Answer. FBI's Corporate Policy Office, in coordination with the 
Training Division, Office of the General Counsel and Office of 
Integrity and Compliance, is preparing an updated online overview 
course, along with updated FAQs, training aids, and summary charts that 
highlight key tenants of the DIOG and the changes from the original 
version. All operational personnel will be required to complete the new 
training course when the updated DIOG is published in July 2011.
    Question. It was recently reported that Umar Patek was arrested in 
Pakistan earlier this year based on a Central Intelligence Agency (CIA) 
tip and is in the process of being turned over to the Indonesian 
intelligence authorities by Pakistani intelligence. Umar Patek is a 
senior commander of al Qaeda's Southeast Asian affiliate, Jemaah 
Islamiyah, and was the field coordinator for the 2002 Bali nightclub 
bombings and the last at-large member of the Hambali network that 
collaborated with Khalid Sheik Mohammed on a planned ``second wave'' of 
attacks on America after September 11, 2001.
    Although Patek's purpose for being in Pakistan has not been 
disclosed, it would not be uncommon for leaders of al Qaeda's regional 
affiliates to meet with al Qaeda's senior leadership to discuss 
funding, recruiting, and current and future operations. It has also 
been reported that he was in Yemen before his trip to Pakistan. This is 
a person with intimate knowledge of al Qaeda's leadership, networks, 
and possibly future or current plots targeting America and other 
locations.
    Please provide an update on the U.S. Government's involvement with 
this apprehension and if there is an effort to get him into our custody 
so that U.S. interrogators can directly determine if he is aware of 
threats to the Homeland.
    Also, please explain if we had captured Umar Patek ourselves 
overseas, or any major al Qaeda leader, where would the terrorist be 
detained and interrogated?
    Answer. FBI defers questions on this matter to CIA.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. We're going to just recess now, and 
reconvene in SH-219, for classified testimony on the national 
security budget of the FBI. And we'll look forward to seeing 
all members there. Don't stop for phone calls. We'll see you 
there.
    [Whereupon, at 11:15 a.m., Thursday, April 7, the 
subcommittee was recessed, to reconvene in closed session in 
SH-219.]

</pre></body></html>
